<html>
<title> - THE FY 2019 FOREIGN ASSISTANCE BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 THE FY 2019 FOREIGN ASSISTANCE BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2018

                               __________

                           Serial No. 115-131

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                 ______
                                 
                U.S. GOVERNMENT PUBLISHING OFFICE                    
29-388PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>                               
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Mark Green, Administrator, U.S. Agency for 
  International Development......................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Green, Administrator, U.S. Agency for 
  International Development: Prepared statement..................     8

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Material submitted for the record by the Honorable Bradley S. 
  Schneider, a Representative in Congress from the State of 
  Illinois:
  151 Retired Three and Four-Star Generals and Admirals Oppose 
    Cuts to the International Affairs Budget.....................    65
  1,215 Veterans from Every Branch of the Military and All 50 
    States Oppose Cuts to the International Affairs Budget.......    73
The Honorable Adriano Espaillat, a Representative in Congress 
  from the State of New York: Material submitted for the record..    81
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    84
Written responses from the Honorable Mark Green to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    86
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................   103
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................   115
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   116
  The Honorable Gerald E. Connolly...............................   120
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   124
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................   128
  The Honorable Bradley S. Schneider.............................   135

 
                 THE FY 2019 FOREIGN ASSISTANCE BUDGET

                              ----------                              


                       WEDNESDAY, MARCH 21, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. All right. The committee will come to 
order, and this is on the fiscal year 2019 foreign assistance 
budget, and I think all of us on this committee certainly agree 
that the U.S. has to be engaged throughout the world. We have 
security, trade, humanitarian, and many, many other interests 
worldwide. U.S. development and diplomacy activities abroad 
protect and advance those U.S. interests.
    And today we are going to hear from Ambassador Mark Green. 
He's a former member of this committee, as you know. Many of 
you worked with him. Africa was a particular interest of his 
when he was here. He subsequently shepherded PEPFAR into 
implementation, and he's here with us to review the 
administration's fiscal year 2019 budget request for the U.S. 
Agency for International Development.
    This is the premier development agency worldwide, and it's 
your first appearance, Mark, in front of the committee. 
Welcome, Ambassador.
    And, regrettably, the administration has proposed cutting 
USAID's funding by 33 percent, despite the fact that foreign 
aid accounts for less than 1 percent of the budget. As 
Secretary Mattis has said, undercutting diplomacy and 
development only increases the likelihood that U.S. forces will 
need to deploy in the first place.
    Indeed, these proposed cuts would impact a number of U.S. 
priorities including efforts to combat terrorists, combat 
poachers, and human traffickers. U.S. leadership was key to 
stopping Ebola in West Africa and continued engagement is 
needed to address future health threats before those health 
threats could hit our shores. The U.S. also has a proud legacy 
of supporting electoral processes and democratic institutions, 
providing a lifeline to people fighting for freedom and 
suffering under authoritarian regimes worldwide. These efforts 
shouldn't be shorted, and we see proposed cuts to humanitarian 
assistance at a time when more than 65 million people have been 
displaced by conflict and famine looms in at least four 
countries.
    Now, everyone agrees that these overseas programs can be 
improved. Both USAID and the Department of State need to better 
align U.S. assistance with our most pressing national security 
objectives. They also need to eliminate duplication and waste, 
and promote a capable workforce that's adaptable. However, I 
worry that this budget request will hamstring USAID's efforts 
on these fronts.
    That said, there are some bright spots in this budget 
request. It supports the creation of a Development Finance 
Institution that could unleash the power of private sector-led 
growth and it would expand opportunities for U.S. investment 
and trade. It is a proposal with bipartisan, bicameral support 
that this committee will soon consider.
    The budget prioritizes funding for programs that promote 
greater self-reliance, including helping countries mobilize 
their own resources for development. It emphasizes transparency 
as well as accountability and programming for results. The 
budget also gives us a glimpse into some of the much-needed 
organizational changes at USAID. Already, Ambassador Green has 
improved coordination with the Department of Defense, helping 
to ensure that development interests are on a level playing 
field with diplomacy and defense.
    Just as aid can't be an entitlement for those overseas, it 
shouldn't be an entitlement here at home, and this includes 
food aid, which for too long has been treated as an entitlement 
for a handful of shipping companies rather than as a 
humanitarian program meant to save lives. I look forward to 
working with the administrator to ensure that Food for Peace 
programs are fully reformed so we can stretch our aid dollars 
further and so that we can save more lives.
    U.S. foreign aid is a needed tool to advance vital U.S. 
economic interests, humanitarian ones, and security interests 
as well. Ambassador Green, I look forward to working with you 
and I look forward to working together with my committee 
colleagues to see that USAID remains a world-class, cutting-
edge development agency.
    And with that, I turn to our ranking member, Mr. Engel of 
New York.
    Mr. Engel. Mr. Chairman, thank you for calling this 
hearing.
    Ambassador Green, welcome to the Foreign Affairs Committee. 
Thank you for your leadership and service. I have no shortage 
of disagreements with this administration but I'll give credit 
where credit is due. You are a great choice to lead the U.S. 
Agency for International Development.
    When you briefed our committee members a few weeks ago, I 
got a clear sense that you understand why development is so 
important--that the investments we make in these efforts pay 
huge dividends--that USAID's work advances American values, 
promotes economic prosperity, and improves lives around the 
globe.
    These aren't just nice things to do, they are integral to 
promoting out security. Healthy and more productive societies, 
governments that respect the rule of law and transparency, 
countries that are strong fair leaders in their regions--all 
these help us to advance our interests around the world.
    They deny our enemies the opportunities to exploit 
vulnerable people and find safe havens in lawless areas, 
because poverty and lack of opportunity create hotbeds for 
instability and violence.
    Ambassador Green, you've been a member of this 
congressional body as a Member of Congress. You've been our 
Ambassador to Tanzania, president of the International 
Republican Institute, director and the United States Global 
Leadership Coalition, board member of the Millennium Challenge 
Corporation, and now you're our top official dealing with 
development.
    You've seen up close what a difference development 
assistance makes. You've seen how development initiatives help 
countries lift themselves up, how they prevent crises and 
conflicts before they start, how they put within touch ends to 
global health pandemics like HIV/AIDS and tuberculosis.
    As I said, I think you're a great pick for this job, 
Ambassador Green. But with a 33 percent cut to USAID's budget 
there is no one, I believe, who could do your job effectively.
    This budget would undermine everything I mentioned earlier 
that contributes to our country's security and, frankly, it's 
just heartless.
    Food for Peace zeroed out, development assistance cut by 42 
percent. Humanitarian programs down by 34 percent. Basic 
education 53 percent--more than half. And democracy and 
governance programs a 41 percent cut from last year's mark.
    And beyond the numbers, dangerous policies like the global 
gag rule are doing real harm. This medieval approach to women's 
health is causing clinics to close, blocking access to HIV 
tests, and denying women and girls basic health care from 
doctors and nurses they trust.
    It just isn't possible to keep making progress on our 
international development priorities if we slash the budget by 
a third. This proposal represents another step in America's 
withdrawal from the world at a time when our leadership is 
needed more than ever.
    Fortunately, it's been clear since the administration 
submitted its budget last year that there is bipartisan 
opposition to these drastic cuts which would undermine our role 
in the global stage.
    There are simply too many challenges where America can make 
a difference--the four famines, the Rohingya crisis in Burma 
and Bangladesh, Venezuelan refugees fleeing to Colombia and 
Brazil, the ongoing horror in Syria.
    These are areas where USAID's expertise is desperately 
needed and where this budget would hamper our ability to 
provide desperately needed assistance.
    And as a reminder, USAID accounts for roughly \1/2\ of 1 
percent of the total Federal budget. So arguments that we 
cannot afford it just don't fly with me, especially after the 
President signed the tax bill that blows a $1.5 trillion hole 
in the budget.
    And finally, Ambassador, I know as well that you are 
proposing a lot of reforms at USAID. I just want to ensure that 
any changes are done to modernize American development and make 
it work better, not simply starting with a budget number and 
downsizing to fit it.
    I thank you very much for consulting with our committee and 
I encourage you to continue the dialogue so that we can be part 
of this process and I thank you again for your service and your 
time and the times we have met I really have a good feeling 
with you at the helm.
    So thank you again for your service and your time today, 
and I yield back, Mr. Chairman.
    Chairman Royce. Thank you. Thank you, Mr. Engel.
    So this morning we are pleased to welcome Ambassador Mark 
Green. He's a good friend. He is a former colleague of this 
committee.
    As a matter of fact, when he served on this committee he 
was probably the member most engaged in the issues that we are 
discussing today.
    This is his first appearance before our committee in his 
official capacity as administrator of the U.S. Agency for 
International Development.
    He has had the opportunity to meet with us previously on 
these issues as a committee. Mark brings to the table decades 
of development experience. I have great confidence in his 
ability to bring renewed vigor to USAID's critical work.
    Prior to his appointment or just prior, Mark was the 
president of the International Republican Institute. He also 
served as U.S. Ambassador to Tanzania and he, of course, 
represented Wisconsin's 8th District when he served here on the 
committee with us.
    We appreciate him being here with us today and without any 
objection the witness's full prepared statement will be made 
part of the record and members here are going to have 5 
calendar days to submit any statements, questions, or any 
extraneous material they might have for the record.
    So if you would, Mark, please summarize your remarks.
    Ambassador.

  STATEMENT OF THE HONORABLE MARK GREEN, ADMINISTRATOR, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ambassador Green. Thank you. Thank you, Chairman Royce, 
Ranking Member Engel, members of the committee. I appreciate 
this opportunity to discuss USAID's fiscal year 2019 budget 
request.
    It is wonderful to be back in this room. As a couple of you 
have already noted, I served on this committee during my time 
in the House. Of course, back then it was called the House 
International Relations Committee and we were, shall we say, 
more of a ragtag bunch than the distinguished ladies and 
gentlemen that I see here before me.
    But even so, today feels like I am coming home.
    I'd like to begin my remarks by expressing my gratitude to 
Secretary Tillerson for his leadership over the past year and 
for his service to the nation.
    I also welcome the nomination of Director Pompeo. While he 
and I have not have an opportunity to speak since his 
nomination, I very much look forward to our future in-depth 
discussions on how development and diplomacy can go hand in 
hand in advancing America's interests around the world.
    In the meantime, at USAID we have urgent work to do. From 
the unprecedented humanitarian challenges in places like Syria 
and Somalia to exciting development opportunity through 
expanded private sector engagement and the extension of 
programs like Feed the Future.
    The work of our agency has never been more important. I've 
just returned from New York where I briefed the United Nations 
Security Council on the humanitarian crisis that is growing in 
the Democratic Republic of the Congo.
    That country is facing escalating violence, particularly 
against women and girls, that could soon spill over into 
surrounding nations if not adequately addressed.
    I urge the Government of the DRC to hold credible and 
inclusive elections by the end of the year. I demanded that it 
protect humanitarian workers and end the crackdown on freedom 
of speech and assembly.
    Just to its north, South Sudan is facing extreme levels of 
food insecurity and near-famines continue to rage in Nigeria, 
Yemen, Syria, Somalia, and Ethiopia.
    In Yemen, 17.8 million people--the largest number in the 
world--are facing severe food insecurity. Since October 2016, 
the U.S. has provided nearly $768 million in humanitarian 
assistance to help the Yemeni people.
    We have urged all parties to continue to allow all 
humanitarian and commercial goods including fuel to enter Yemen 
through Hodeidah and all other points of access.
    We have pushed hard for protections for civilians and aid 
workers who put themselves at great personal risk to assist 
people in need.
    During my first trip as administrator, I traveled to 
Ethiopia, Sudan, and South Sudan where I saw how USAID is 
leading the world response to these complex humanitarian 
crises.
    That trip helped shape our plans to strengthen, integrate, 
and streamline our humanitarian assistance, and to ensure that 
we leave behind a capacity to mitigate and respond.
    This is reflected in the budget request before you and it's 
guided my conversations with fellow donors as we have 
encouraged them all to do more in helping to mobilize resources 
as well.
    During my visit I saw just how much these tragedies are 
rooted in poor governance and, frankly, authoritarianism and 
corruption, which so often go hand in hand.
    Last month, we announced USAID's new mission statement. It 
includes an explicit commitment to strengthening democratic 
governance abroad, a priority that I know from our 
conversations that all of you share.
    This commitment has informed USAID's work from our 
creation, and under my leadership it will continue to do so. In 
South Sudan, I demanded the government stop obstructing 
humanitarian access and further ensure the safety of all 
humanitarian staff so that assistance can reach those who need 
it most when they need it most. I urged them to truly live up 
to the democratic ideals that they espouse.
    Members of the committee, I've had a chance to discuss with 
many of you the rising negative influence of Russia and China 
in so many regions and the disturbing trend toward repressive 
values.
    In response, our fiscal year 2019 request includes targeted 
investments in Europe and Eurasia that will support strong 
democratic institutions and vibrant civil society while 
countering the Kremlin's influence in the region.
    In Venezuela, we will support those who are working for a 
free and prosperous future. We have requested robust funding 
for our democracy in governance programs in Venezuela that 
support civil society, the democratically-elected legislature, 
and the free flow of information there.
    And in fiscal year 2019 we have requested funds to employ 
and implement more effective approaches to promote an ethnic 
and religious tolerance in Burma, including in Rakhine and 
Kachin States.
    I am deeply concerned, as I know you are, about the lack of 
humanitarian access in northern Rakhine and deep interethnic 
tensions along with reports of horrific human rights abuses and 
an overall lack of real progress in dealing with the Rohingya 
crisis.
    I'll soon be traveling to Burma and Bangladesh to see this 
situation first hand.
    In total, the fiscal year 2019 request for USAID fully and 
partially managed accounts is approximately $16.8 billion. It 
represents $1.3 billion more than requested last year including 
$1 billion for humanitarian assistance.
    Now, we acknowledge that this budget request will not 
provide enough resources to meet every humanitarian need or for 
us to seize every international development opportunity.
    In truth, no budget in recent memory would be large enough 
to do so. This budget request aims to balance fiscal needs here 
at home with our leadership role on the world stage.
    We are committed to taking every prudent step to extend the 
reach and effectiveness of taxpayer resources, both of the 
strategic allocations of those resources and the redesign 
process.
    This includes strengthening domestic resource mobilization 
programs so the partners can more effectively finance their own 
development future.
    It includes taking steps to ensure that our programs and 
procedures are more private enterprise friendly so we can 
better leverage our resources, bring new ideas and partners to 
our work, and increase opportunity for American business.
    It includes procurement reform, which we hope will make us 
more flexible and responsive to our implementing partners so 
they can extend and improve the reach of USAID-supported 
initiatives.
    It means strengthening our ties with other agencies. For 
example, we are right now in the process of drafting a new 
global MOU with Mashav to guide our development cooperation 
with the Government of Israel.
    We are also striving to more closely align our resources 
with our strategic needs and are focused on measurement and 
evaluation to support that alignment.
    Earlier this month, Deputy Secretary of State John Sullivan 
wrote to us that USAID ``should initiate its own hiring 
procedures to accommodate the agency staffing needs.''
    In line with that guidance, the hiring freeze has been 
officially lifted. Moving forward, we will use our hiring and 
reassignment review board to seek to align workforce planning 
with the priorities and the plans that are outlined in this 
budget request.
    Finally, I would like to say a word about reported 
incidences of sexual abuse and misconduct by aid workers that 
we have all read about. I've been deeply troubled by the 
allegations.
    USAID works across the globe to protect vulnerable 
populations and to advance human dignity. This is a serious 
endeavor and it's one that comes with great responsibility. 
Sexual exploitation is contrary to the very core of our 
mission. It is abhorrent.
    On March 9th, I met with representatives from InterAction, 
the Professional Services Council, and United Nations agencies 
to make clear to our partners that USAID will not tolerate 
sexual harassment or misconduct of any kind.
    I also formed a new action alliance for preventing sexual 
misconduct, which is being chaired by General Counsel David 
Moore.
    It will undertake a thorough review of our existing 
policies and procedures to identify and close any potential 
gaps while strengthening accountability and compliance in 
consultation with our external partners.
    I assure you this is an issue I am tracking personally. 
Sexual abuse is a cancer that I have resolved to root out and 
eliminate in the development sector.
    In closing, I believe that we are shaping an agency that is 
capable of leveraging our influence, authority, and available 
resources to literally transform the way that humanitarian and 
development assistance are provided.
    Alongside the rest of the world it will help us better meet 
the dawning challenges that we see today. With your support and 
guidance we will ensure that USAID remains the world's premier 
international development agency and continues the important 
work we do each day to protect America's future, security, and 
prosperity.
    Thank you for allowing me to speak with you and I welcome 
your questions, Mr. Chairman.
    [The prepared statement of Ambassador Green follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you very much, Ambassador.
    I would begin with a question on food aid reform. The Trump 
administration is now the third successive administration to 
seek dramatic reforms in U.S. international food aid 
programming, in this case going so far as to propose 
eliminating funding for the inflexible Food for Peace program 
altogether and replacing that with a completely flexible 
disaster assistance program.
    And I applaud their boldness in this. This isn't just about 
saving money if we can get the permanent fixes through this 
program that we are seeking. It's about saving lives, and after 
the super typhoon hit the Philippines, many of us on this 
committee, myself and Mr. Brad Sherman, Joe Wilson went with 
us. Steve Chabot was with us, along with three or four other 
members.
    When we went into the Philippines immediately after that 
devastation and saw--in the village we were in there was only 
one home left standing but it took 4 weeks for U.S. food to 
arrive, even though it was prepositioned in Sri Lanka.
    If it had not been for the alternative programs this 
committee had pushed for that allowed the immediate purchase of 
that food aid there, obviously, you would have had people 
without any capability for weeks of being fed.
    It took 6 weeks for prepositioned U.S. food to arrive in 
Nepal after the earthquake in 2015. It took 16 weeks to arrive 
in Yemen after the food emergency started there. We just 
returned less than a month ago from the Arabian Peninsula up on 
the border with Yemen to look at the challenges there.
    But fortunately, in each of these instances it was USAID 
that acted quickly. You tapped into other disaster assistance 
accounts so that you could get locally-purchased food to people 
in desperate need within hours instead of weeks.
    And while we are fortunate to have had those disaster 
assistance funds available in a pinch, it is sad and it's 
unacceptable that our food aid could not provide food when and 
where it was needed most and this is why we must reform.
    So we have introduced legislation to fix Food for Peace by 
recognizing the important contributions of American farmers 
with a 25 percent floor on the purchase of U.S. commodities but 
also adding much more flexibility to purchase local food when 
and where that's more efficient and these small changes would 
save an estimated $300 million that could be used to reach an 
additional 10 million starving people.
    So I understand you may not be able to comment on this 
legislation specifically. But is the concept consistent with 
what the administration is trying to achieve in its assistance 
programming?
    Ambassador Green. Thank you, Mr. Chairman.
    First off, thank you for your kind words about the USAID 
team. We view ourselves as being operational and as nimble as 
we can be.
    With respect to food assistance, we obviously support goals 
to flexibility. In terms of the particular legislation, I have 
not had a chance to review it and, to my knowledge, the 
administration has not taken a formal position on it. But we 
always support efforts to make our dollars go as far as they 
can.
    Chairman Royce. Thank you very much, Administrator.
    The other question I wanted to ask was on wildlife 
trafficking. This committee had prioritized efforts to counter 
wildlife trafficking, and this has become a source of financing 
not just for criminal networks but for terrorist organizations, 
especially across Africa.
    And it threatens our national security--it threatens the 
national security of states there. So combating this crime is 
as much about security as it is about saving majestic species 
like elephant and rhino.
    But I'll give you a real-world example. For Al-Shabaab, the 
militants there traffic in ivory. Each one of those ivory tusks 
get better than 20 boxes of ammunition.
    A real-world example--they went into the forest, massacred 
many of these elephants, trekked the ivory out, got additional 
ammunition, and then went into Garissa University in 2015, if 
you recall, when they slaughtered so many of those students. 
One hundred and forty of those students died but many, many 
were also left grievously injured from those attacks.
    Now in Gabon officials busted a wildlife trafficking ring a 
little over a month ago. That ring was tied to Boko Haram.
    So, Ambassador Green, how can we continue to address the 
clear national security threats posed by wildlife trafficking? 
We have got budgetary constraints here. Your ideas about how to 
move forward?
    Ambassador Green. Thank you, Mr. Chairman, and your own 
work on this regard, obviously, is well known and has made a 
huge difference and helped provide us with some of the tools.
    So as you rightly point out, this is not simply about 
biodiversity, as important as that is to all of us. It is about 
preventing the fuel for organized crime and other nefarious 
elements.
    Wildlife trafficking has grown into the fourth most 
lucrative form of transnational organized crime, and so it is a 
high priority for us for a number of reasons.
    So as much as anything, it is enhancing the capacity of law 
enforcement and game park security enforcement. I think that's 
the first and most important thing we can do, and working with 
other agencies we are heavily engaged in that, trying to help 
build their own capacity.
    Also, secondly, it's to reduce demand and build the kinds 
of global partnerships that your legislation has promoted, but 
building partnerships to restrict the demand as well.
    But I am greatly appreciative that you've raised the 
profile of this, in particular its linkages to crime.
    Chairman Royce. Yes. Well----
    Ambassador Green. It's something I don't think is well 
understood.
    Chairman Royce. We have passed legislation here to shut 
down the ivory trade, which is going to help in terms of the 
demand.
    But we are going to have to reverse some of the cuts in 
these programs because if we are going to stop Al-Shabaab, if 
we are going to prevent Boko Haram, which both have pledged 
fealty to ISIS, from continuing to build their operation, we 
have got to reverse engines here and make sure that the 
programs go forward to shut that down.
    Ambassador Green. Mr. Chairman, I look forward to working 
with you on this.
    Chairman Royce. Yes. Thank you.
    Mr. Engel.
    Mr. Engel. Well, Ambassador Green, as you heard me before, 
I mentioned how pleased I was that you've reached out to us and 
have worked with us. So I want to say that again.
    I want to acknowledge a veteran staffer from this committee 
sitting behind you, Eddy Acevedo, and I know he'll do you well. 
So I am happy to see him here as well.
    As I've mentioned before, I've been extremely disappointed 
by the administration's draconian 33 percent cut to USAID and 
also to the entire international affairs budget.
    I've heard the argument that we cannot solve all the 
world's problems and that we have to set priorities. The 
problem is that I think this proposed budget makes it 
impossible to achieve even our core priorities.
    The real-world impact of those cuts would be absolutely 
devastating. Tens of thousands of people will lose access to 
lifesaving medicines and potentially starve to death, and we 
are talking about a relatively small amount of funding here.
    The USAID budget, as I mentioned before, is only \1/2\ of 1 
percent of the total Federal budget.
    So, Ambassador, I know you understand that development, 
along with diplomacy and defense, is critical for meeting U.S. 
national security objectives.
    How can you function with these draconian cuts? And what 
bothers me is that they were submitted last year. This Congress 
rejected it--bipartisan rejected it and we improved the amount 
and then the administration the second year, which is now, 
sends us another proposal for the same draconian cuts that we 
rejected as a Congress last year.
    So it just doesn't make any sense to me. I know you well 
enough to know that you would always want to function better 
with more money and be well funded but how can you function 
with these draconian cuts?
    Ambassador Green. Thank you, Ranking Member Engel.
    Well, first off, I readily admit that this budget will not 
allow us to do everything we might want to do in a perfect 
world and it doesn't allow us to take on every opportunity that 
we might see.
    I recognize that the President in this budget is attempting 
to balance the needs that he sees in security of citizens, 
advancing American leadership, and commit them to efficiency 
and effectiveness.
    What I can say as administrator I believe my job is to get 
the resources that are generously provided to us and do the 
best I can to make them go as far as I can.
    We are working very hard to encourage our partners around 
the world to do more, and I think many of them are. We are 
seeing increased contributions from Germany, France, in 
particular South Korea, and Japan.
    Also, mobilizing domestic resource mobilization programs to 
help those countries where we are working better capture their 
own revenues and resources.
    I think we are doing more with the private sector and 
engaging with private sector from the word go to make sure that 
our programs leverage not only their financial resources but 
also the partnerships that they can bring.
    So my commitment to you is to go as far as I can with every 
single dollar that's provided.
    Mr. Engel. Thank you.
    I want to ask you a question about Venezuela. A recent 
Washington Post article stated that the mass exodus of 
Venezuelans into Colombia and other places is one of the 
biggest migration crises in Latin American history and compared 
it to the flow of Syrians into western Europe in 2015.
    I introduced the Venezuelan Humanitarian Assistance and 
Defense of Democratic Governance Act with my good friend, 
Ileana Ros-Lehtinen, which passed the House in December.
    I was pleased to see USAID get to work on some of the items 
in this bill by announcing $2.5 million in new assistance for 
Venezuelan refugees in Colombia yesterday.
    That's, obviously, a good start but much needs to be done. 
So what can you tell us about what you're attempting to do in 
Venezuela and why has USAID not yet provided direct 
humanitarian aid to the Venezuelan people through credible NGOs 
and if you're going to do it when would you expect to do it?
    Ambassador Green. Thank you, Mr. Engel. First off--and 
thanks for the legislation--you're right. Yesterday, we 
announced $2.5 million in humanitarian assistance for the 
people of Venezuela who have left the country for Colombia and 
this will provide much-needed food assistance and medical 
support to this population, and as we all know, this is an 
entirely manmade humanitarian crisis.
    I condemn the snap elections by Maduro. These elections 
will not be free, fair, and transparent, and all they will do 
is cause more of a migration and force more and more people.
    We will continue to support human rights and civil society 
groups in Venezuela. The money that was announced yesterday is 
but a down payment and we look forward to working with you to 
make sure that we continue to provide the humanitarian 
resources that are necessary to begin to address this terrible 
crisis.
    And as you point out, this is a crisis that's largely gone 
under the radar in terms of the humanitarian fallout and the 
forced migration and it's something that really hasn't received 
enough attention.
    My commitment is to work with you to make sure that it 
does, to provide the resources we can and take every step and 
look at every measure we can to push this forward.
    Mr. Engel. Thank you, and before I go, I want to just 
mention Syria again. It's just--particularly what's happening 
in Ghouta now and elsewhere, and it's just horrifying. So I 
hope that you can increase whatever aid we can give to the 
civilian population in Syria.
    Ambassador Green. Thank you, Mr. Engel.
    Mr. Engel. Thank you.
    Chairman Royce. We go now to our chairman emeritus, Ileana 
Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member.
    I first want to point out in the back row of the audience 
is 12 just outstanding individuals there. They are part of the 
Florida Gubernatorial Fellows Program. They are at various 
stages in their educational career. Some are already lawyers.
    Some are applying to law school, Ph.D. candidates. Some are 
undergrad, and they have been assigned to different agencies in 
Tallahassee. But they are spending a week here so I am glad 
that it snowed for them.
    Welcome to DC, Floridians.
    But thank you, Administrator Green. It's been such a 
pleasure for all of us in our committee to have been working 
with you and many of us old timers who had the delightful 
experience of being a member on this committee with you and 
you're so accessible to Congress and we appreciate that 
greatly, as you know.
    And the opportunities that we have had, all of the members 
have, to reach you, to find out what USAID is doing in every 
corner of the world. So thank you so much for looking out for 
all of us and looking out for all the vulnerable members of the 
world.
    I don't know about the wise decisions you have made in 
giving important jobs in your administration. We look at Eddy 
Acevedo there and we think maybe your judgment is clouded at 
times. But----[laughter]--but you can be forgiven for a few 
mistakes.
    Thank you for providing this humanitarian aid that you just 
announced yesterday--$2.5 million for Venezuelans and Colombian 
communities that are hosting them. What an important and 
welcomed step and thank you for calling these elections that 
are coming up in Venezuela.
    Sham elections are next month. The situation is just going 
to get worse, if that is possible. So thank you very much for 
that.
    On Nicaragua, I was disappointed to see the President's 
budget zero out our assistance to Nicaragua. So Ranking Member 
Engel, Albio Sires, and I sent a letter to you yesterday urging 
you to work within the administration to reverse that decision.
    As you know and all of us know, Nicaragua's Ortega has 
taken the country down the same path as Castro and Maduro, and 
that can't be good. So now is not the time to be retreating.
    If we leave, we find ourselves in a similar situation that 
we are currently facing in Venezuela. Soon you'll have to 
announce humanitarian assistance to Nicaraguans. Oh, boy. So we 
hope that you can use your voice and your power within the 
administration to straighten that out.
    And lastly, I was encouraged as you pointed out in your 
statement, Ambassador Green, to see USAID signed this 
memorandum of understanding with Israel on Power Africa. And 
Congressman Ted Deutch and I authored H.R. 5141.
    That's the U.S.-Israel Security Assistance Act and it 
includes a section on USAID and Israel. We think it's sound 
policy that many other areas in which USAID and Israel can work 
together to advance mutual interests. So this is the beginning 
of a wonderful friendship.
    So our bill calls for more agreements like Power Africa and 
so I wanted to ask you where else is USAID looking to work with 
Israel and sign similar MOUs and leverage our cooperation with 
this critical strategic ally to advance their interests, our 
interests, everybody's interests as well.
    Thank you, Ambassador.
    Ambassador Green. Thank you.
    First off, thank you for legislation and what it stands 
for. I had a very positive meeting recently with Ambassador 
Dermer and we are looking for all kinds of ways to increase our 
cooperation including negotiating a global MOU which will 
enshrine and institutionalize that cooperation.
    As you know, Mashav, which is our Israeli counterpart, as 
they pointed out, our older brother--they are actually older 
than USAID is--they said that they are the older poorer brother 
to USAID.
    But they have a particular expertise in water security and 
a number of particular technical skills and capacities that 
we'd like to tap into. It'll help us achieve our development 
goals I think more effectively and efficiently, also build the 
relationship and help them achieve some of their goals.
    So I am very excited about what the possibilities are and 
looking forward to finalizing that MOU as soon as we can. So I 
think it's a great opportunity and, as you know, I think people 
sometimes assume it would mean it's confined in the Middle East 
and, of course, that's simply not true.
    The work we are doing together in Africa through Power 
Africa, the work we'd like to do together in places like Latin 
America, I really see as the sky being the limit here.
    Ms. Ros-Lehtinen. Thank you so much, Ambassador.
    Thank you, Mr. Chairman, for the time.
    Chairman Royce. Thank you, Ileana.
    We are going to go to Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Eddy, you do look out of place back there. [Laughter.]
    Thank you, Ambassador, for being here today and I want to 
join--I think that one of the programs that I know we all have 
talked and raved about and fought for was Power Africa, and so 
the continued commitment from USAID in regards to Power Africa 
is extremely important.
    And I know you've had a position of talking about private 
investments to help support economic development in sectors in 
the country.
    So I want to bring to your attention another one that was 
established about 18 months ago between USAID and the U.S. 
National Association of Security Professionals called MEDA, and 
MEDA is a program where it exposes U.S. investors to co-
investments with African counterparts in African 
infrastructure. It connects African investors to investment 
opportunities in the United States.
    And so I just want to make sure that it's something that 18 
months but with your limited budget, I am just hoping that we 
can continue to support it and if it's not on your radar please 
put it on your radar because it's extremely important and I 
think that it will help both ways. It'll help our relationship 
with some African countries and help here. So if it's not on, 
please put it on your radar.
    I am the ranking member on the Europe, Eurasia, and 
Emerging Threats Subcommittee and I am encouraged by the 
substantial attention that USAID gives to countries striving to 
enter the EU family, especially when we are talking about 
Georgia and the Ukraine, and the future of these countries are 
defined by their pathway to the EU and I believe that by the 
deep comprehensive free trade agreements that we are working 
on.
    So, in fact, I believe that that's the correct policy for 
our European allies and NATO and the EU, and it's the best 
Russia policy.
    Now, the EU, they are one of the largest if not the largest 
donor of aid in the world, along with the United States.
    So I was wondering whether or not USAID has a way to 
coordinate what the EU is doing with what the United States is 
doing so that we can make sure now we are maximizing the buck 
that's going into some of the areas that best need the kind of 
aid that USAID provides.
    Ambassador Green. Thank you.
    First off, with respect to MEDA, I will learn more about 
it. I'd love to follow up with you. Working with the private 
sector on co-investment and co-design is particularly 
important. Really, we want that to be the hallmark of our 
relationship with private enterprise.
    Moving beyond traditionally simply contracting and 
granting, which we will continue to do, but really coming 
together to get some of the ideas, the new partnerships, and 
the new opportunities. So very important to us.
    With respect to Europe and Eurasia, it's an area of 
particular interest to me. The work that I used to do at IRI a 
lot of it was in that part of the world. Countering Kremlin 
influence is extremely important to us and I think the best way 
to counter Kremlin influence is to have success in the areas 
around Russia.
    So reinforcing good governance, fighting corruption, 
economic growth, diversification of energy I think is very, 
very important.
    In terms of our coordination, I recently held a strategic 
dialog with my counterparts at DFID and we are looking for ways 
to align. I have good relationships with the EU but want to 
make sure that we beef that up even more.
    We meet with our EU counterparts fairly often. But I think 
we are entering into a chapter in which the world's major aid 
agencies and sources really do need to be working to share 
knowledge, to look for partnerships, to co-design, to co-
invest.
    So you have my commitment to keep building on that. I think 
it's very important and it really is a great way of reinforcing 
the Euro-Atlantic alliance, which is the pivot point around 
which the world turns.
    Mr. Meeks. Thank you.
    And let me just ask this last question as my time is about 
to run out. I am concerned about, especially with the cuts, and 
when you look at the storms that have happened, I would note 
there is no assistance for the post-Hurricane reconstruction in 
the Caribbean.
    And so I am wondering whether or not there will be--and I 
believe that was shortsighted because we need those as allies 
also--but will you use existing funding to make the Caribbean 
countries more resilient to future natural disasters?
    Ambassador Green. A great question.
    So in response to the terrible storms--as you know, it was 
a convergence of storms in so many ways. We responded 
immediately with DOD in providing humanitarian assistance 
including substantial food aid that we provided.
    So we did that almost immediately. In terms of longer-term 
reconstruction, that's something that we are working with the 
World Bank on, not so much that we are doing ourselves. We 
don't have resources for that.
    But we are looking for ways to build resilience of these 
countries. My view has always been that as important as 
humanitarian assistance is, the real compassion comes with 
helping to build resilience of those countries and those 
governments to withstand future shock and to be in a position 
to help themselves.
    It's good for them and it's certainly good for us. So we 
will look for ways to do what we can to build resilience in 
those areas.
    Mr. Meeks. Thank you.
    Chairman Royce. Thank you.
    We go to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and again, welcome, 
Administrator Green.
    You had mentioned I think early on that you were here--we 
were sort of ragtag. I was one of those who was with you back 
in that time. I can assure you that we are still pretty ragtag 
and so things haven't changed that much.
    But we appreciate you being in your position and people 
have commented on Eddy, and we wish you the best, Eddy. We know 
you're going to do a great job there as well, and all those 
things that were said kind of in jest is because we all----
    Ambassador Green. How much has he paid you guys? 
[Laughter.]
    Mr. Chabot. That's right. Not enough. But in any event, 
also there was some--early on in this hearing it has been off 
and on, you know, some criticism of the President and the 
administration, even the tax bill, saying how can we cut taxes 
and cut this, too, et cetera?
    And I would just remind folks that the tax cut bill will 
reinvigorate--already is--the economy, creating jobs. People 
that are now working can pay taxes back in.
    So it isn't dollar for dollar, but a lot of that tax cut is 
ultimately paid for by a reinvigorated economy, job creation, 
and the revenues that come back into the government. And so I 
just want to make that point.
    Mr. Connolly or anybody else that--I hear some grumbling 
over there.
    Mr. Connolly. We have heard that story before. [Laughter.]
    Mr. Chabot. Well, it just happens to be true. It was true 
under President Kennedy, a Democrat, President Reagan, 
President Bush, and now President Trump.
    Mr. Connolly. Would my friend yield for 1 second?
    Mr. Chabot. I am debating whether I should or not. I will--
--
    Mr. Connolly. President Reagan had to raise taxes five 
times to make up for the red ink.
    [Crosstalk.]
    Chairman Royce. The committee hasn't changed that much. 
[Laughter.]
    Mr. Connolly. But believe it or not--believe it or not, we 
are friends.
    Mr. Chabot. So reclaiming my time. We are--we are still 
friends.
    Chairman Royce. I'll give the gentleman an additional 
minute. But occasionally we are still ragtag around the edges a 
little bit, Administrator Green.
    Thank you.
    Mr. Chabot. All true. But reclaiming my time. Thank you 
very much.
    And so--and then relative to the actual cuts here, I think 
we ought to be also clear about this that we have a $20 
trillion debt.
    Now, I think, it's went up to $21 trillion. And so it is 
appropriate. I would give the administration credit for at 
least attempting to look at all parts of the budget and see 
where we can save money.
    Now, they are a separate branch of government. A lot of 
times that budget that they send over here is referred to as 
dead on arrival and it is appropriate that the legislative 
branch--a separate branch--look at that budget and make changes 
and modifications, which is has here.
    Now, oftentimes what we spend is CRs and omnibuses and 
things.
    I would note that I think last time, in essence, those cuts 
didn't occur, at least to any considerable degree. So the 
funding did go out to those important programs and in all 
likelihood will this time as well.
    So even though it's appropriate for all those that are 
trying to positively impact people around the world who really 
need the help to bring it to our attention, the reality is is 
that I think our Government will continue to help folks who 
really do need it around the world.
    And I just, in my remaining time, Mark, I wanted to talk 
about a program. I know your staff is aware of it and I just 
want to elevate it in your mind.
    Our colleague--my Democratic colleague, Robin Kelly, and I 
were the principal sponsors of legislation that was passed in 
the House back in October.
    It's called the Protecting Girls' Access to Education Act, 
and in essence what it does is it allows your agency, USAID, 
and the State Department to prioritize access to education for 
the most vulnerable displaced populations around the world, 
especially girls who are particularly vulnerable in these 
conflict zones.
    Places like South Sudan, Syria are modern examples right 
now but it happens all over there, depending on where the 
instability is.
    And they are really vulnerable to a whole range of things 
if they don't get a proper education and it's unstable and they 
don't have any kind of skills to support themselves, they are 
subject to exploitation, to human trafficking, to forced child 
marriage, and a whole range of other things.
    So I would just urge you to discuss that with your folks, 
make sure that you're fully up on that, and we are awaiting, as 
we are on so many things, Senate action.
    We understand the votes are there. It's just a matter of 
them ultimately passing this legislation. I don't know if you 
have any comment that you'd like to make there.
    Ambassador Green. Thank you, Congressman Chabot.
    As you know, I began my career in development as a teacher 
in east Africa and so I certainly recognize what you're saying.
    In so many ways a focus on women and girls is at the heart 
of what we do. Not only is it a matter of gender equity but 
it's smart development.
    What we see by investing in girls and creating 
opportunities--economic opportunities for girls--90 percent of 
that money that they earn gets reinvested into communities and 
so there is a multiplier effect.
    But also in so many ways it's smart global health. So, we 
have always realized that the number-one way of preventing the 
spread of, for example, HIV is an educated mom. I mean, it 
really is. So this is a high priority for us.
    And then, finally, as we have discussed, what I think is 
the great challenge of our time is how we provide education and 
basic services to the displaced communities in the world.
    There are 70 million people displaced in the world right 
now, and you have children being born in camps and settlements, 
growing up in camps and settlements, and someday, God willing, 
the gates open, the fence comes down, and they are out in the 
world, and how do we help them not be vulnerable to the worst 
kinds of exploitative forces? And education is a key part of 
it.
    So we are looking at a wide range of ways to enhance how we 
are able to do that. Technology is an ally here but not a 
panacea. But it really is, I think, the great challenge of our 
time. More than any one group, I think it's that.
    Mr. Chabot. Thank you very much.
    My time has expired, Mr. Chairman. Thank you.
    Chairman Royce. We go to Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chairman and Ranking Member.
    Let me welcome you, Ambassador Green, to this hearing and I 
want to associate myself with the ranking member's comments to 
give credit where credit is due regarding your appointment.
    I appreciated working with you while you were at IRI and 
especially, I have always appreciated your commitment to 
Africa.
    So I wanted to ask you about that, the concerns in the 
budget cuts--but in addition to that, the appointment of the 
Assistant Secretary.
    The assistant administrator, I heard, has been withdrawn, 
so I don't know if a new person will be nominated, if that 
nomination is imminent. I am not exactly sure why they were 
withdrawn.
    But as you can imagine, I struggle often with African 
Ambassadors who are confused by what our message is, what our 
policy is, and most notably, the situation with Tillerson last 
week really sends a confusing message to African countries.
    The fact that he essentially gets notified right after 
returning from the continent of Africa--then what does that say 
to his trip?
    So, you could comment about that. Also, I read your 
presentation to the Security Council on the DRC and really 
appreciated everything there.
    But I'd like to ask you what exactly our position is. I 
know our position is that elections should be held by December. 
But what I haven't heard from us is, what about a commitment 
from Kabila that he not run? Because if our position is just 
that elections be held by December, number one, he's postponed 
them a number of times--number two, that doesn't say that he 
won't run.
    And then number three, I am wondering if you think it's 
time for more, even perhaps sanctions, because there is 
legislation that we have pending in the subcommittee. But as I 
read about the escalating crisis daily in the DRC, I am just 
really concerned that it seems like we need to step up.
    Ambassador Green. With respect to the DRC and my appearing 
before the U.N. Security Council, first, I am careful to stay 
in my lane as the USAID Administrator and not----
    Ms. Bass. Oh, okay. That's true.
    Ambassador Green. But I will say this. You saw my comments 
and, yes, they were pointed. What strikes me--actually, we were 
talking about this morning the similarities of Venezuela and 
DRC in the sense that you have two nations which should be 
contributors and donors in the world----
    Ms. Bass. Right. Right.
    Ambassador Green [continuing]. And look where they are, and 
they are entirely manmade--corruption, authoritarianism. In the 
DRC, the gender-based violence is--it's almost unimaginable 
what we are seeing.
    At the same time, we have a regime which, according to a 
number of outside observers, Mr. Kabila--his family has 450 
miles worth of diamond concessions and 80 of the largest 
companies in the country he owns, in whole or in part, which 
kids can't go to school, while we are seeing the violence 
against humanitarian workers. We lost an American last year.
    Ms. Bass. Right.
    Ambassador Green. It's as dire a situation as can possibly 
be. Part of what my message was to the Security Council is the 
humanitarian catastrophe is clear and we should all do our 
part. But we should not think that simply providing 
humanitarian assistance is either a solution----
    Ms. Bass. Exactly.
    Ambassador Green [continuing]. Or is truly compassionate. A 
lot more needs to go with it. And so I look forward to working 
with you further on this.
    It is an area of great interest and concern to me and I am 
also worried, as we see things playing out--the violence, 
especially leading up to the election--we are going to continue 
to see Congolese fleeing and potentially destabilizing the 
region.
    So this is an international crisis. It's not simply a 
matter of a bilateral crisis.
    Ms. Bass. Let me get one more question in.
    You mentioned gender equity and I was wondering if the 
programs like AWEP that was a USAID program--if that program is 
still in place and if some of the other gender-specific 
programs in USAID are still in place or have they been cut or 
eliminated?
    Ambassador Green. So I can't answer your question and will 
follow up with you. What I can tell you is that our gender-
focused and gender equity programs will continue if not get 
ramped up.
    We are looking to have the gender lens being one through 
which basically every program flows. Again, it's sound 
development logic in addition to being a core value--American 
value. It's awfully important for achieving any of the goals we 
are hoping to achieve.
    Ms. Bass. Thank you.
    Chairman Royce. We will go now to Joe Wilson of South 
Carolina.
    Mr. Wilson. And thank you, Chairman Ed Royce and Ranking 
Member Eliot Engel, for your leadership.
    And welcome back, Ambassador, Congressman, President, 
Director--all the titles that you have so well deserved.
    Ambassador Green. Usually when someone says that there is 
something coming after.
    Mr. Wilson. Right. Right. Hey, with Joe Wilson, it's just 
going to be positive, okay, and so because I know Mark Green. 
But congratulations on your success and, truly, an indication 
of that is Eddy Acevedo.
    We are so used to him sitting behind us and making sure 
that we do it semi-correctly. So we just appreciate his service 
and he, of course, is a key aid to Chairman Ileana Ros-
Lehtinen--truly helped her become one of the most effective 
chairmen we have ever had for Foreign Affairs.
    Now the question, and I want to thank you for your 
leadership here in Congress for the Millennium Challenge. What 
an extraordinary success story that's been.
    The administration has correctly provided strong support 
for the people of Ukraine, most recently by agreeing to sell 
Ukraine Javelin missiles to defend its people and territory 
from the Putin aggression.
    Ukraine's reform efforts are underway in many areas, 
especially combating corruption. What are your plans to use the 
extensive U.S. assistance program in Ukraine to ensure that the 
government fully implements the reforms its agreed to, 
especially concerning corruption?
    Ambassador Green. Thank you, Congressman.
    So in terms of our work with Ukraine, I think there is 
tremendous good will both sides of the aisle, multiple 
administrations, toward Ukraine and Ukraine's success.
    On the other hand, I think it's also true that the window 
is not open forever for Ukraine. They must take on corruption, 
and it's a core challenge for them and something that in many 
ways influences their politics and citizens' perception of the 
government.
    So it is a principal part of the work that we do. 
Transparency, accountability, giving them the tools, 
reinforcing the ability of civil society to hold people to 
account--all vitally important.
    The people of Ukraine want to move toward the West. They 
look to the West for inspiration, guidance, and leadership, and 
a core part of that is tackling corruption.
    A few weeks ago at the Munich Security Conference I had a 
chance to meet with Mayor Klitschko of Kiev, who I've met with 
before, and he talked about the priorities he has in battling 
corruption and that it's a slow heavy slog.
    And so we have pledged to meet with him and continue to 
work with him to enhance those tools. So I am right with you in 
terms of its importance and it really is central to all of our 
plans in the region.
    Mr. Wilson. And it's exciting that you mention the mayor. I 
had an opportunity to meet with him at the Munich Security 
Conference and also members of the Parliament of Ukraine, and 
it's just encouraging to see such extraordinary people and a 
beautiful country.
    While the administration has made impressive gains to help 
retake territory under ISIS control, we now face significant 
humanitarian and stabilization challenges.
    How does this request enable the United States to continue 
to meet the objectives of defeating, degrading, and disrupting 
ISIS?
    Ambassador Green. Thank you for the question.
    So in places like Raqqa, Syria that I visited some weeks 
back--there is a couple of parts. First off, humanitarian 
assistance, which we provide, but more importantly in many ways 
is the restoration of essential services.
    I had a chance to go with General Votel of CENTCOM to Raqqa 
and, first off, I have to tell you the devastation I saw was 
almost incomprehensible.
    I've never seen the extensive devastation like that 
anywhere in the world. As far as you can see to the horizon, 
buildings are leveled.
    And yet, when you go to the IDP camp, which I did, Raqqans 
told me over and over again they want to go home. They want to 
move back to Raqqa.
    They are home bound, and so I would ask them, what will it 
take for you to move back home? Water, electricity, access to 
meds, some basic food, some semblance of education.
    And so USAID's work there--we have a very small footprint--
is designed on that limited mission. Restoration of essential 
services so that Raqqans can go back home--that we don't leave 
an open space, a void. We don't cede the territory to the bad 
guys who will come back.
    Challenges are great. I found the Raqqans inspirational.
    Mr. Wilson. Well, and we find your service inspirational 
and what USAID does for persons in displacement camps, to see 
schools built in Afghanistan--I wish the American people could 
see more.
    Thank you very much.
    Ambassador Green. Thank you.
    Chairman Royce. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman, and thank you, 
Ambassador Green, for your service to our country as well as 
the important work that you're doing at USAID.
    This morning we had breakfast--a few of us had breakfast 
with the Chicago Council on Global Affairs and the topic was 
around the agricultural economy and the number of youth that 
are out there, particularly in Africa and sub-Saharan Africa 
and the potential crisis if we don't find solutions for both 
the food insecurity there but then also this--the growing 
number of young people who may not have any economic 
opportunities.
    One of the remarkable successes, and we talked about this 
in the past, is Feed the Future and capacity building, an 
interest that I think many of us on the committee share, along 
with yourself, is obviously we will respond to global crises 
with aid and so forth.
    But the focus on capacity building and how we help those 
countries go from recipient countries to countries that 
actually can address their own needs.
    Would you talk about some of the success of Feed the 
Future, the places where we can be most helpful in shifting 
toward capacity building and then an area where there is a 
large amount of moneys that the diasporas send back around the 
world and how we could better effectively partner with the 
various diaspora to utilize those funds again in a capacity-
building effort?
    Ambassador Green. Thank you.
    First off, and I think I've mentioned it to some of you 
before, when I served as an Ambassador in Tanzania, so this is 
2007, 2008, and 2009, there was no Feed the Future, and I had a 
country that was 83 percent rural agriculture and I have no 
tools whatsoever to deal with it.
    So I am a big fan of Feed the Future and I think it was a 
great contribution by the Obama administration to our 
progression of developing tools--a very important part of our 
work.
    One of the things that I think makes it particularly 
interesting and dynamic is the fact that it is built around 
private sector engagement.
    So this is not simply a traditional program like other good 
programs but a traditional program where we are doing things, 
solely government grants. This is really stimulating the 
private sector, private investment.
    We, in the U.S., of course, have a number of wonderful 
companies engaged in this space but also helping them to 
stimulate their own capacity in those countries, which have the 
additional benefit of creating opportunities for people in the 
countries themselves.
    And when it comes to youth, if the greatest challenge in 
the world right now from a development perspective are 
displaced communities. Number two is the rising youth bulge, if 
we fail to help provide those opportunities.
    The average age of a Ugandan is about 16. In Tanzania, it's 
17 and going down. And so I really worry about a rising 
generation of underemployed, if employed, and also disconnected 
in the sense of not reinforcing their investment in civic 
institutions.
    I think working on the food sector, which is the natural 
backbone of every economy, particularly in the developing 
world, it really is a way to tackle a number of these problems 
at the same time.
    They are not going to go away anytime soon. This is a long-
term generational challenge but worth every dollar that we put 
into it.
    The Chicago Council is near and dear to my heart. Before I 
got this job, I actually helped develop that report that they 
unveiled and I thought some of their ideas are really worth 
looking at and trying to integrate into our work.
    Mr. Bera. Excellent.
    And in the brief time I have left, the second question was 
moneys from the diasporas that are here--that are flown back, 
how we could better partner with diasporas to address some of 
these----
    Ambassador Green. You know, it's an area that we have 
simply not done as well as we need to do. I know working with 
my British counterparts, DFID, they actually--diaspora 
communities are a bigger part of the work they do and maybe 
because of the commonwealth. We simply have not done this as 
well as we need to.
    So it's something that we are actively looking at, 
particularly Western Hemisphere the diaspora is a little closer 
in some ways. But I think there are all kinds of technology 
transfer opportunities--you know, really ways of helping 
everyone gain.
    Our neighbors need to succeed, obviously. It's important 
for our security and our economy.
    Mr. Bera. Great. Thank you. I'll yield.
    Chairman Royce. Thank you. We go to Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Ambassador Green, it's good to see you. I want to reiterate 
what many of the members have said about your work in this 
entire area.
    It is not a job for you. It is a calling, a cause, a 
passion, and you are intense about it and I think that is why 
members on both sides admire what you do for so long. So thank 
you for that.
    I want to make three comments. One, it seems to me that 
many of the world's issues, primarily in the developing 
countries, centers specifically on one word and that is water, 
and the lack of clean water affects everything.
    It affects health. It affects development. It affects 
crops. It affects everything, and I want to commend you on the 
WASH program and all of the NGOs that are working to get clean 
water throughout the world. And I think it's also a security 
issue as well.
    As we know, women in Africa many times have to walk miles 
to get water. Those water wells are guarded by criminals and to 
get the water they are abused and then they have to repeat that 
in a couple of days as well. That's awful that we live in a 
society, in a world, where that happens.
    The other item that I wanted to mention to you--then I have 
a question--I recently met with the three speakers of 
Parliament of Georgia, Ukraine, and Moldova. All three of those 
countries have portions of their nation occupied by Russian 
troops.
    They have many things in common. They are, I believe, very 
concerned about which direction each of those three countries, 
but the three of them together, are going to move--are they 
going to go move back to the Russian bear or are they going to 
move to the West.
    And I think it is not only a humanitarian issue but a 
political issue that the United States show support for those 
three countries, getting rid of the corruption and developing 
their nations to have more pro-democracy corrupt-free 
institutions. Still, as we know, they are occupied by Russian 
troops and probably will be for a long time.
    One issue that I want to talk about, though, is Pakistan. 
The United States has been sending lots of money to Pakistan 
forever. We do military aid. We do military sales and then we 
do foreign assistance.
    There is $335 million in the proposed budget for Pakistan 
supposedly for countering violent extremism in Pakistan. Two 
comments and then a question, actually.
    A recent general said that the United States will probably 
be in Afghanistan indefinitely. That's another issue but it's 
troubling to me that that seems to be our policy.
    The Afghan President recently said before the United 
Nations--and you might have been there when he said this--that 
the center of Taliban terrorism in Afghanistan is from 
Pakistan, and the problem in Pakistan is not going to be solved 
on terrorism until we--the world deals with the issue of 
Pakistan playing both sides.
    Pakistan, I think, funds the Taliban that goes into 
Afghanistan, puts our troops in harm's way, then trots back 
over into Pakistan and hides. It may be true that the Pakistan 
nation fights the Taliban in Pakistan.
    But they support the Taliban in Afghanistan. I think they 
are playing us, they are playing the Chinese, and yet we 
continue to give money.
    I don't think we ought to give them a dime of foreign 
assistance. I even think we ought to remove them from the major 
non-NATO ally status that they have. But we are all concerned 
about their ability to have nuclear weapons, et cetera.
    So if you could candidly weigh in on money that goes to 
Pakistan that I think is being used against American interests 
and Americans in Afghanistan. There would be my question.
    Ambassador Green. Thank you.
    So very quickly, I agree with the priority you place upon 
clean water and water security. In fact, if not for the 
weather, I would be speaking at a clean water event tonight at 
the National Geographic with Procter & Gamble in celebration of 
some of the work that we are doing together. Again, I think 
weather is going to disrupt that.
    Secondly, Georgia, Ukraine, Moldova, of course, I agree, 
and I agree on their importance and I agree that they are 
countries that, first off, want to move our way and, secondly, 
are countries that we need to succeed and we need to help with 
the tools, particularly take on corruption and to reinforce 
democratic governance there.
    With respect to Pakistan, our work is in line with the 
President's South Asia strategy. So as you might know, all of 
our approaches are under review right now and I am not quite 
sure where it's all going to end up, however.
    I think we all recognize that a stable peaceful Pakistan 
that contributes to stability and good neighbor relations would 
definitely be in our interests. And so we are looking for ways 
that we might be able to reinforce that, particularly helping 
to tackle some of the problems in the FATA regions.
    But, again, it's under in review in line with the 
President's directive on the South Asia strategy and we are 
watching and we will take part in that and we will see where it 
ends up and we will work with your office and let you know how 
that strategy is going.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you for this.
    Thank you, Ambassador Green, for your being here, for your 
service. I agree with the generals and our chairman, who say we 
cannot bomb our way into peace. So I appreciate what you do.
    I want to start by thanking you for addressing the sexual 
abuse at OXFAM, the USAID partner. Just to let you know, 
coincidentally, our bipartisan Women's Caucus had a hearing 
this week on sexual harassment, talking about our country where 
we have plenty of it.
    The testimony was absolutely shocking how pervasive it is. 
I do want to tell you this. All the experts agreed that you 
must have leadership at the top to stop it. It's an imperative, 
so thank you and keep that up.
    I think you have intimated and others have intimated that 
when women succeed the world succeeds, and, sadly, women are 
being abused and exploited in all parts of the world. Rape is a 
tool of war--child marriage, genital mutilation, human 
trafficking, child marriage.
    I thank you for your wise comments on education. I want to 
stress that access to health care is also a necessity and I am 
in a distraught--how do I say?
    I am distraught by what I see as our President's misogynist 
policy and back-stepping policy on women's health, which I 
believe is a looming disaster for women not only in this 
country but for all over the world--slashing international 
family planning assistance by half, cutting maternal health 
programs, expanding the inhumane global gag rule that forces 
health care providers to cut services for women, cutting off 
funding to the U.N. Population Fund.
    With the global gag rule, this administration has gone 
further than ever, and we know that past versions have resulted 
in the rise in maternal deaths and unwanted pregnancy.
    And so expanding this policy to all U.S. global health 
assistance, I mean, to--from millions to billions is going to 
be particularly hurtful to women and their participation in 
communities.
    I have a couple of questions for you along these lines. We 
talked to Secretary Tillerson. He was in front of our committee 
some time ago, and we asked him to share an analysis of this 
new global gag policy.
    We got a report. Basically, the report talked about 
implementation but did not get into at all the impact. And so 
we are looking to understand what will the impact be on terms 
of maternal mortality, HIV, nutrition services, with the 
expansion of this gag rule.
    In terms of the U.N. FPA works in 150 countries to provide 
critical services to women including maternal care to treating 
survivors of sexual violence and combating harmful practices 
like female genital mutilation.
    For example, in Jordan's largest refugee camp we have seen 
more than 7,500 babies have been born without a single maternal 
death because--in a large part because of their work.
    And so my question to you on that front is are you or how 
are you redirecting USAID funding to make up for cutting back 
on the U.N. FPA?
    All right. That was a mouthful. I know you can answer it.
    Ambassador Green. Thank you. Thanks for the questions.
    Let me begin, very briefly, by, again, reassuring you that 
sexual harassment and sexual misconduct will be something that 
I pay personal attention to and we are going to continue to 
make sure that our approach is unmistakable.
    Shortly after I arrived as administrator, we sent out an 
executive order globally to make that clear and I spoke a 
couple of weeks ago to all of our mission directors and a phone 
call made it clear, and also called on them to bring in our 
implementing partners in the field mission by mission to 
reinforce this message. So there is no doubt or uncertainty 
whatsoever.
    Ms. Frankel. And you're going to have to keep that up.
    Ambassador Green. Absolutely. This is an ongoing process. 
This is not a one-off and we are going to--and we will be happy 
to brief you on some of the steps that are coming out of our 
new alliance that we are putting into place.
    Secondly, you've been very passionate and were in our 
private discussions on the topic of family planning, and as I 
assured you then and reassure you today the report that you 
have seen was a 6-month report--the data we had as grants came 
up for renewal or supplementation, and the plan is for the end 
of this year when we will have much more information that we 
will, working closely with the State Department--they are the 
lead on this--have a more in-depth report and we will be happy 
to come and brief you, as we did with the first report.
    Then, finally, with respect to this budget, this budget--
the fiscal year 2019 request has in it $302 million for family 
planning, which it did not request in the previous--in the 
fiscal year 2018 budget. So with protecting global life and 
global health in place, the new moneys have been provided.
    Ms. Frankel. What about the work of the U.N. Population 
Fund?
    Ambassador Green. Well, as you know, while we are not 
participating, other donors can and are.
    Ms. Frankel. I don't think that's a satisfactory answer, 
but thank you for it.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Ambassador, we are honored by your presence today. I come 
at this from the sense that democracy or Western-style 
democracies at some level decided by the host nation is the 
best circumstance for long-term and sustainable development and 
that those type of institutions provide best for citizens' 
needs, decided in their countries, crucial for development.
    And through the aid that we provide the United States has 
an opportunity to promote those effective accountable and 
responsible democratic institutions and that in doing so also 
reduces the countries' need for dependence on foreign and 
particularly U.S. foreign aid.
    With that, and the importance of democracy and good 
governance, I think we both recognize the appropriate level of 
oversight that's necessary and promoting those things.
    I want to give you two examples. One is Macedonia, or some 
people say Makadonia. Over the past couple of years, USAID, the 
mission in Macedonia, has selected the Open Society Foundation 
as a major implementer and has awarded in February of last year 
the Open Society Foundation a $2.54 million contract for 
training in civic activism, mobilization, and civic engagement.
    Now, this raised concerns not only for me but members of 
this committee and others because there is a perceived strong 
belief that the Open Society Foundation has a strong political 
bias to the left.
    And while on the surface this might be benign, it doesn't 
seem to me to be--should be the United States' position to 
choose which political party in a country governs but that they 
have a strong democratic institution that works for their 
citizens.
    And at the time that they received this contract, Macedonia 
was facing a fairly contentious parliamentary election and our 
Ambassador came under scrutiny for displaying a strong leftist 
political bias against a legitimate party, the VMRO, and 
facilitated coalition negotiations between the main leftist 
party and the ethnic Albanian parties.
    The second one is Cambodia. When Hun Sen's CPP narrowly won 
its victory in 2013 and then instituted a crackdown on 
opposition journalists and generally civic society 
organizations, to which on February of this year the 
administration was compelled to review assistance to Cambodia 
to ensure that taxpayer funds were not being used to support 
anti-democratic behavior.
    Based on this view and this review, the White House 
announced the suspension of several Treasury, USAID, and 
military assistance programs which were linked directly to the 
crackdown on democracy.
    And as you have said, and I would contend you are correct, 
foreign assistance dollars are precious. The people of the 4th 
District, which I am privileged to represent, in Pennsylvania 
and all across the country are due strong oversight and to make 
sure that their dollars are being spent wisely for the things 
that we believe in will help these countries do better for 
themselves and reduce the need for foreign assistance and, in 
turn, enhance our national security right here at home.
    So the questions, with all that backdrop, are can you speak 
to the steps your agency is taking to ensure that our aid 
regarding democracy and good governance is promoting Western 
democratic values?
    And to that, is there a process of selecting implementers 
for aid programs that has come under scrutiny under your 
tenureship, under your leadership?
    Do you foresee any substantive changes to the metrics or 
considerations to select implementers in your redesign? That 
would be one, and then during your tenure as administrator and 
beyond regarding the mission in Cambodia, have there been any 
instances where USAID has stopped or paused aid because it 
immediately and adversely contradicted Western democratic 
values?
    Ambassador Green. Great. Thank you.
    So a couple of responses. First off, with respect to 
Macedonia, the contract that you're referring to was prior to 
my tenure.
    As you may know, I am an old democracy hand and so I 
believe fundamentally in democratic governance and the work 
around democratic governance and I don't believe that sound 
democratic governance means picking winners and losers and 
getting involved in the process.
    Mr. Perry. Sure. We are complaining about it in this 
country right now about foreign actors engaging in picking 
winners and losers in our country.
    Ambassador Green. So it is something that I know real well. 
I can tell you that our new Assistant Administrator for Europe 
and Eurasia. Brock Bierman was just there in Macedonia, 
reaching out, having meetings with the government, all the 
political parties and partners to ensure that there is parity 
in our approach.
    Secondly, with respect to Cambodia, first off, there are 
places where we have cut aid because of decisions that have 
been made. In the case of Cambodia, we did cut funding for 
certain things.
    We cut moneys to the National Election Commission. 
Obviously, with the type of election they had, that was 
inappropriate.
    Secondly, we cut funding to local officials who were chosen 
illegitimately by the policy decisions that were made.
    Third, we also shifted funding to reinforce civil society 
and to strengthen the role of civil society to have that voice 
of opposition, in light of the decisions.
    And so those are ways that I think it's very clear what we 
stand for and how we strengthen the democratic ethos.
    It's very important here, I think, as, you know, we believe 
in democratic governance, not just governance. Authoritarians 
are really good at governance. Not much else, but they may be 
good at governance.
    We all share the value of democratic citizen responsive 
governance and that's what we reinforce.
    Mr. Perry. Can you clarify the implementers and your 
metrics for choosing them? Will----
    Chairman Royce. And maybe do that in writing.
    Ambassador Green. Okay.
    Mr. Perry. That'll be fine. Thank you.
    Chairman Royce. That would be fine.
    Mr. Perry. I yield, Mr. Chairman.
    Chairman Royce. Okay. Thank you. We go to Mr. Joaquin 
Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you, Ambassador 
Green, for your testimony today.
    Over the last few decades the character of foreign 
assistance has fundamentally transformed through innovation. So 
do you support innovation as a part of your redesign efforts at 
USAID?
    And let me ask you specifically about the Global 
Development Lab within USAID tasked with driving innovation, 
which has generated wonderful new ideas about approaching 
development challenges.
    Do you support the Global Development Lab and its efforts 
in driving innovation in foreign assistance?
    Ambassador Green. Yes, absolutely. Innovation is one of the 
driving parts of our redesign effort. With respect to the 
Global Development Lab, again, we are not done with our 
redesign. We are still getting approvals and will continue to 
brief your staff.
    We are essentially going to take the Global Development Lab 
in the way that it goes about its work, so investigating, 
testing, and then scaling up innovations, and we hope to 
institutionalize that throughout much of the agency.
    So that's one of the things I've learned a great deal 
about. Innovation has to be at the heart of what we do.
    Mr. Castro. No, well, thank you for that.
    I guess a big part of my concern is that the President's 
budget for fiscal year 2019 requested only $12.5 million for 
the Global Development Lab in comparison to its typical funding 
levels at above $100 million. Obviously, a very drastic cut in 
funding.
    So how would this significant decrease hinder USAID's 
intention of driving innovation in foreign assistance?
    Ambassador Green. Well, first off, funding for the Global 
Development Lab has actually gone up and down since its 
creation. But what we are trying to do, again, as we go through 
this redesign process is make sure that we capture its lessons 
and use it more broadly.
    Secondly, the Global Development Lab is at the heart of our 
new approach to private sector engagement and a big part of how 
we are going about our business in that sense.
    So, traditionally, it's the public-private partnership 
model which basically you craft a program and then you try to 
get the private sector to buy in or help.
    What we are doing, largely with the help and through the 
Global Development Lab, is reaching out to the private sector 
and saying, here's a challenge we see--an opportunity that we 
see--we'd love your ideas.
    We made it easier for them to participate and share those 
ideas and then with the Global Development Lab--and, again, 
will be expanding its work--we are able to test those ideas and 
put together the best ideas forward and make the funding more 
nimble.
    So we are doing our best to take all that you're pointing 
to in the Global Development Lab and raise it and extend it.
    Mr. Castro. So you're basically crowd sourcing--putting out 
a challenge and crowd sourcing the best ideas to solve these 
development----
    Ambassador Green. I have learned so much in my travels, 
seeing some of the inspirational innovations in places like 
India. It really is quite exciting and we have talked about how 
do you transition in the future.
    In other words, as countries advance in their development 
journey, at some point, like India, they don't want food aid. 
They are not looking for money. They are looking for help, 
technical assistance around these innovations and that's great.
    I mean, that's a wonderful place for us to be, and using 
some of the lessons that we have learned here is at the core of 
it.
    Mr. Castro. And the chairman and the ranking member both 
mentioned our concern about any kind of decrease in foreign aid 
at this point, particularly as China is growing more ambitious 
in its alliances around the world and its own development work 
around the world.
    So what are your thoughts on American foreign assistance 
with a rising China out there?
    Ambassador Green. Well, twofold. One, we recognize we will 
never have enough money to take on every challenge----
    Mr. Castro. Sure.
    Ambassador Green [continuing]. Humanitarian development. We 
all recognize that. But number two, what you're pointing to is 
very real. The rise of China, of how they do development, of 
the way that they tie to development long-term indebtedness 
that we are seeing in a number of places, lines on extractives 
and natural resources.
    One thing that we have not, I think, as a government and, 
quite frankly, as a nation done well enough is making clear to 
the world the choices that they have.
    There is the China choice, which is the sweetener money up 
front and then the fine print and indebtedness. What we are 
trying to do with our assistance is to help countries build the 
ability to lead themselves.
    So what we want is self-reliance. We want countries to move 
from being recipients to partners to, hopefully, donors. That's 
a clear choice. That's how we are trying to orient all of our 
tools in our programs.
    Mr. Castro. Thank you.
    And then one last question that I'll take in writing. The 
situation in Venezuela has grown more dire and there are about 
1.5 million people who have basically fled their homes.
    In writing, the answer to the question what are we doing to 
assist in that situation. Thank you.
    Chairman Royce. Thank you, Mr. Castro.
    We go to Dan Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman.
    Ambassador, I just have two questions. I'll give them both 
to you because they may intertwine. Realizing there is always 
going to be disasters that are going to require our assistance 
throughout the globe, some of the things that we have addressed 
in the past in your experience, and I know you've only been 
there for 6 months but through your entire career, are there 
any of these areas that need our help have we found a solution 
for the people?
    Are there anything that we use our efforts so that we don't 
have to go back and help people again because they are able to 
help themselves?
    And the other thing I wanted to ask you, and again, this 
might intertwine--I know this is a hearing concerning your 
budget for the next fiscal year. But since we are a legislative 
body, is there any legislation--is there anything that you 
would need from this committee to help you perform your duties 
more expediently, more efficiently, less costly? Anything that 
we can help you with?
    Ambassador Green. First off, with respect to the second 
question that you've asked, I will come and see you. I am sure 
that we will have many such suggestions and requests, and I 
really do seriously appreciate the offer.
    First, with respect to--I guess it's progress--results. You 
know, where we have seen things--problems addressed, perhaps 
the best example I can give you from my tenure is my first 
visit overseas, which was to Ethiopia.
    Ethiopia is a country that's going into its fourth 
consecutive year of drought and yet it has not fallen into 
full-scale famine, and part of the reason for that--we think a 
big part of it--is the fact that we have worked with local 
business leaders and governments to strengthen their resilience 
to withstand future shock.
    So we have livelihood programs, water technology that we 
share, and that's a great story. So it's the famine that hasn't 
occurred--knock on wood, hasn't occurred yet. We made a real 
difference.
    Second, I take a look at the extraordinary advances that 
have been made in fighting malaria. The progress--the reduced 
mortality in Africa is incredible.
    I am a malaria survivor myself and when I lived in Kenya 
years ago malaria was a fact of life and someone died, it 
seemed, every other day from malaria. And yet, through in large 
part the generosity of the United States, but the technical 
assistance and the proven technologies make enormous strides.
    And so that has unleashed economic strength in many of the 
countries that have been afflicted by malaria for so long and 
given them real hope. So it's the class time that you don't 
lose. It's the workdays and the business setting that you don't 
lose because of the investments that have been made.
    So there are a number of great success stories. The 
challenge is that the humanitarian needs that we all see right 
now are so daunting that I think it sometimes overwhelms in the 
public's mind the successes that we have seen and the progress 
that we have made.
    But I do appreciate your offer, by the way, and we will 
come to you.
    Mr. Donovan. As a follow-up, your success that you just 
described in Ethiopia, other successes, could they be applied 
elsewhere so that we help other countries, other nations from 
having to suffer through what they've suffered during their 
disasters?
    Ambassador Green. Absolutely. Among other things, when I 
was Ambassador in Tanzania, when I would meet with groups in 
the country I would almost always begin the same way.
    I'd say, look, I am not saying we have got all the answers. 
I am saying maybe we have made all the mistakes and you don't 
have to make the mistakes that we have made along the way, and 
share our technology and including the tough lessons we have 
learned the hard way.
    USAID is built around learning. We are constantly learning. 
We are constantly doing after actions. We are constantly 
auditing ourselves.
    We partner closely with our OIG to make sure that we are 
doing things the most effective efficient way we can. We take 
the lessons to heart and we apply them. And more broadly, as we 
are pulling together our new metrics to measure how countries 
are proceeding in their own development journey a lot of that 
is based upon lesson sharing from other countries.
    So we are able to show a country the challenges that were 
taken on perhaps by a neighbor, and while it doesn't 
necessarily mean an absolute, just simply replicate, they are 
important lessons and when they are lessons from a neighbor 
countries are very interested. When they don't think it's 
simply wealthy America coming in but other similar countries 
that have faced tough challenges, people are willing to learn.
    Everyone wants to be able to lead themselves. They believe 
in self-dignity and the sovereignty of leadership and that's at 
the core of our approach.
    Mr. Donovan. Thank you, Mr. Ambassador, for your insight 
and for your service to our nation.
    I yield the remainder of my time, Mr. Chairman.
    Ambassador Green. Thank you.
    Chairman Royce. Thank you.
    We go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and I thank you and 
Ranking Member Engel for your commitment to ensuring this 
committee provides appropriate oversight over the President's 
budget.
    Thank you, Administrator Green, for being here, for the 
engagement you have with our committee. I know that you've 
spent your career committed to international development and 
you spoke so powerfully to your own personal experiences here 
today.
    That is why it's so perplexing to see an international 
affairs budged coming from this administration that once again 
includes a 30 percent cut with a 33 percent cut to USAID's 
budget.
    I can't imagine that you believe that this is helpful to 
our interests around the world, and I understand that our 
dollars are not unlimited and that we need to prioritize.
    But this budget does not seem the prioritize some of the 
most important assistance and development projects that the 
U.S. has invested in for years, not because it helps people in 
countries around the world but because it's in our own national 
security interests.
    A 37 percent cut to global health means programs to reduce 
the spread of dangerous diseases. A 34 percent cut to the 
humanitarian account used to address the dire humanitarian 
crises caused by war, famine, weather-related catastrophes.
    A 40 percent cut to the Middle East where economic 
development, education, and governance programs are critical to 
stability in a volatile region and preventing those affected 
from turning to terror groups who can offer a paycheck and 
food.
    We need to invest in soft power and we need to do it to 
complement our military power, and while we can defeat 
immediate threats on the battlefield, addressing the underlying 
concerns of terrorism is the way that we will combat terrorism 
in the longer term.
    I am deeply concerned that these cuts won't just cause us 
to reduce current programming but will actually set back 
significant progress made over the past several decades.
    I know this administration wants to emphasize burden 
sharing. I absolutely believe that other countries must step up 
to address complex crises around the world.
    But given the administration's disjointed foreign policy 
and distancing from traditional allies combined with dramatic 
cuts to our own assistance budget, I am concerned that we are 
losing our leverage and influence to ask other countries to 
support our national security priorities.
    I have one question for you about leverage but I want to 
start by going back to something you talked about earlier.
    You spoke about countering the Kremlin's influence. Can you 
talk about your role in doing that?
    Ambassador Green. Thank you for the question.
    So my view has always been that one of the best ways to 
counter Kremlin influence is to build and broaden democratic 
governance in the surrounding region.
    The best way to push back on Vladimir Putin is success in 
Ukraine and helping the people of Ukraine achieve the democracy 
and freedoms to which they aspire as a model for the region.
    So that's something that's very important to me. So that's 
our biggest approach in what we do. Secondly, working with 
state and others we work on building journalist capacity and 
take a look at ways to counter some of the misinformation that 
is part of the propaganda effort that comes out of the Kremlin.
    And then third, a big piece of it is energy independence. A 
lot of the nations in that region are held hostage in some ways 
by their energy dependence upon Moscow, and if we can 
strengthen energy independence and diversity of sources, that, 
I think is another way of countering the influence.
    Mr. Deutch. So, Administrator Green, I want to thank you 
for those answers. I want to thank you for your testimony 
today, and I agree with you.
    One sure way for us to lose leverage and influence with 
other countries is what we are discussing and what we saw here 
just this week.
    When the President of the United States calls Vladimir 
Putin to congratulate him on his victory and fails in that 
conversation to condemn the use of nerve agents used on British 
soil and refuses in that conversation to talk about Russia's 
meddling in our own elections, it makes it harder--it reduces 
our leverage with our allies.
    And when asked about that last November and the President 
said, you're not going to get in an argument--you're going to 
start talking about Syria and Ukraine, which he didn't do in 
this conversation, and then for the White House to say 
yesterday from the podium, we don't get to dictate how other 
countries operate, Administrator Green, you are a model for how 
we can help dictate the way other countries operate.
    When you speak about targeting and responding to 
propaganda, when you talk about democratic governance and 
pushing back on Putin and Ukraine, when you talk very 
specifically about what we are telling South Sudan, what we are 
telling Venezuela, what we are telling Burma, the vitally 
important role that we have to play in advancing our values 
around the world and the White House press secretary said we 
don't get to dictate how other countries operate, we have to 
stand for our values, Administrator Green, and I wish that the 
White House paid closer attention to the way that you are 
standing up for those values and advocating our position in the 
world and used your efforts as a model for the way that they 
and the President, in particular, might choose to behave.
    I yield back.
    Chairman Royce. I'll remind members also we have a meeting 
afterwards at 12:30. We have a lunch. The lunch is with UNHCR 
High Commissioner Grandi from Italy, and he'd like to discuss 
Bangladesh, South Sudan, Syria, Yemen, Venezuela with the 
membership here.
    So just a reminder at 12:30.
    We go now to Ann Wagner of Missouri.
    Ms. Wagner. I thank you, Mr. Chairman, for hosting this 
hearing and thank you, Ambassador Green, for taking the time to 
be here today and certainly for your outstanding service.
    My constituents and I care deeply about America's 
leadership in humanitarian assistance and conflict prevention 
and USAID's mission is very important to advancing human rights 
and democracy around the globe.
    Ambassador, last year I introduced H.R. 3030, the Elie 
Wiesel Genocide and Atrocities Prevention Act. This bill would 
authorize the Complex Crises Fund, which is currently managed 
by USAID's Office of Program, Policy, and Management.
    I believe the fund has been useful in helping Embassies 
swiftly respond to conflict situations. Can you tell me how the 
Complex Crises dollars have been deployed in the past couple of 
years here?
    Ambassador Green. Well, first off, part of what you're 
pointing to is that the greatest humanitarian challenges we 
seem to be facing today are manmade.
    Ms. Wagner. Correct.
    Ambassador Green. And so we need to be able to respond to 
address those conditions that are leading to dislocation and to 
displacement.
    So I am looking here and it says that we are estimating 
that the money that--for fiscal year 2018, this year's money, 
half of our funding will go toward six major emergencies, all 
conflict driven.
    In terms of your specific legislation, quite frankly, I 
haven't had a chance to review it. I'll get back to you on it 
to explore further. But I really appreciate your particular 
attention to this because it's something that I think does go 
under the radar--does slide under the radar.
    So what I've got here is that currently it's CAR--Central 
African Republic--Burkina Faso, and Burma----
    Ms. Wagner. Okay.
    Ambassador Green [continuing]. Are the three places where 
it is going. But, I mean, it could certainly be used more 
broadly.
    Ms. Wagner. To that point, I will say that Burma is 
perpetuating ethnic cleansing, as we know--likely genocide of 
Rohingya Muslims in Rakhine State and is refusing entry to aid 
workers.
    How has USAID been navigating its mass atrocity response in 
Burma, sir?
    Ambassador Green. So to this point, a lot of it's been 
humanitarian assistance for those who were displaced. Our 
portion of the work is internally displaced.
    Refugees are led by the State Department but we are working 
closely with them to make sure that there is assistance going 
to those in greatest need, and taking a look at some of the 
technological challenges to providing that assistance.
    I was planning on going myself to see firsthand. The trip 
was postponed because I was not able to get to some of the 
areas that I would need to get to in order to have a good sense 
of it.
    You know, obviously, at a minimum, we are calling upon 
Burma to provide unfettered access to the Rohingya communities 
so that we can take a look at the plight and see what can be 
done to lift some of the suffering, and also, quite frankly, 
it's to begin to investigate the atrocities.
    I worry about what we are seeing, as you've pointed to, and 
it's happening on our watch and the suffering----
    Ms. Wagner. It is, and I do believe it is--we are talking 
about genocide here.
    Ambassador Green. The suffering is enormous.
    Ms. Wagner. And the suffering is enormous and aid workers 
are not being allowed entry.
    Ambassador Green. Right, and that's the biggest and most 
important thing that we are calling upon. I mean, there is more 
that we need to do but unfettered immediate access is, 
obviously, crucial.
    Ms. Wagner. Okay. Well, shifting gears here, in January 
USAID announced a 5-year program to help Thailand counter human 
trafficking, an issue I care very deeply about.
    We know that certain industries have been particularly 
egregious in this regard. How does USAID plan to work with 
Thailand to address forced labor in, specifically, the fishing 
and construction industries, Ambassador?
    Ambassador Green. Well, first off is you're pointing to 
human trafficking is a global human rights tragedy. It's also a 
fundamental development challenge. And so we look at it from 
both perspectives.
    You know, it is protection of victims, it is prosecution of 
perpetrators, it is prevention through awareness building, and 
it's also services in terms of counseling and the tremendous 
suffering that these individuals go through and helping them to 
recover.
    So those are the most important steps that we do in our 
anti-trafficking work.
    Ms. Wagner. I have additional questions but I believe my 
time has expired, Mr. Chairman.
    I thank you very, very much, Ambassador, for your service 
and attention to these issues. Thank you.
    Chairman Royce. And I am going to have to hold everybody to 
5 minutes now because Administrator Green has to leave at 12 
o'clock.
    Norma Torres of California.
    Ms. Torres. Thank you, Mr. Chairman, for holding this 
hearing.
    Ambassador Green, it's really great to see you. Thank you 
for making yourself available to come before our committee.
    I truly enjoyed our meeting last week and, particularly, I 
really appreciate your comments and your commitment to ensuring 
that we continue to address and prioritize corruption in 
Central America and continue to work to support the work of 
CISG and the attorneys general in all three of the Northern 
Triangle countries.
    A lot of great things have been said here today. Many of 
them--I took some notes so let me just try to go through this.
    You stated simply providing humanitarian assistance is not 
enough. I wholeheartedly agree with you on that. DRC and 
Venezuela area manmade issues, right--problems.
    Gender programs--I am for you, that gender programs also 
need to include reproductive health for the women, especially 
right now when the favorite weapon of war for terrorist groups 
across the world is rape. So this has to be a priority, moving 
forward.
    I am glad to hear that USAID is going to provide food and 
medical assistance in Colombia for the refugees there. I also 
want to encourage you to be focused on the TB outbreak in 
Venezuela, and as refugees begin to move into Colombia and Peru 
and some of the bordering--other bordering countries that we 
follow that and we continue to focus our work and ensuring that 
children in Venezuela are vaccinated and also children and 
people in these neighboring countries are also vaccinated.
    We can all agree--focusing back on Central America we can 
all agree that a secure and prosperous Central America is in 
our national interest. The rule of law in these countries is 
essential if we are going to reduce illegal immigration and 
keep drugs from entering our border.
    Addressing these problems at the root of the problem is a 
lot cheaper than dealing with the issues once it comes to our 
border, correct?
    So that's why I just don't understand why the budget calls 
for a 35 percent cut to foreign assistance in Central America. 
I want to talk to you a little bit about Honduras.
    I disagree--strongly disagree with the State Department's 
decision to certify Honduras right after the election and to 
undermine the OAS secretary general's call for new elections by 
recognizing Hernandez's victory.
    Moving forward, I think it's important to ensure that this 
doesn't happen again, and I want to make sure that we focus or 
we put a greater focus on electoral reform.
    You have the capacity of helping to bring about those types 
of reforms. I don't want you to leave here today without 
sending a clear message that your employees at USAID I highly 
regard them and I think that they are some of our best workers 
in public service at the Federal Government level.
    So I put a lot of credibility behind the work that you do 
abroad. This is an important issue if we want to prevent 
another Venezuela, another Nicaragua from happening in our 
hemisphere.
    I believe that we have many good partners in Central 
America with CICIH, MACCIH and the current attorneys general. 
The corruption in these governments is currently at its highest 
level and it has reached the highest points in their 
governments.
    The last two Presidents, for example, of Guatemala are in 
prison and prosecutors have asked to remove the current 
President's immunity.
    The vice minister of foreign affairs in El Salvador is 
involved in financing of the FARC and the associated press 
recently reported that there is evidence that the head of the 
Honduran national police may have been caught up in drug 
trafficking.
    This is someone that went through U.S. background--U.S. 
background check but yet, again, he's involved in drug 
trafficking.
    My time is up.
    Chairman Royce. Your time is up. But we will have it put by 
way of a question----
    Ms. Torres. Please. Thank you.
    Chairman Royce [continuing]. And we will go now to Tom 
Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman, and thank you, 
Ambassador Green. I want to try to go relatively quickly.
    I think I've been as outspoken as anybody but I would 
certainly recognize the leadership of the chair and ranking 
member as it relates to a health foreign affairs budget that 
allows us to develop good relationships in the world and avert 
extremism and humanitarian crisis in advance.
    Having said that, I also want to be a good steward of the 
working American's dollar. Can you speak to what you're doing 
to ensure that the moneys that we allocate for things like 
school feeding are getting to the intended recipients and do so 
as quickly and concisely as you can because of time? Sorry, 
sir.
    Ambassador Green. Thank you. So as concisely as I can, when 
it comes to the delivery of assistance, we look at digital 
tools to make sure that we have digital oversight.
    Secondly, we work closely with our Office of Inspector 
General to make sure that the money and mechanisms are 
appropriate.
    Third, we often use third party auditors in the programs 
that we have and the money that we spend, and we conduct 
constant oversight.
    The best way, I think, is as we pull our metrics together 
toward capacity building, it's monitoring the metrics and the 
submetrics each step of the way. That, in some ways, will be 
the best measure to make sure the dollars are effectively spent 
and make sure that we are doing things in the way that produces 
results.
    Mr. Garrett. Thank you, and I would hope that you would 
also continue to pursue innovative ways to ensure that 
accountability because it's tough, and I really like what 
you're doing and think that you're well suited for the mission 
and admire your work and your wife's work prior to even serving 
here in Congress and your work with anti-malarial efforts.
    But, again, we should always be striving to make sure that 
the dollars get where they are intended.
    It's very interesting to me the paradigms for foreign aid. 
Obviously, there is no doubt that the Russians intermeddle all 
over the world.
    I would argue, and I've certainly gotten sort of 
confirmation of this from folks like the foreign ministers of 
the Baltic States who would know, that the Russian model is to 
undermine democracy, to make the world safe for oligarchs and 
dictators, right?
    And the Chinese model is to shower largesse on the ruling 
class and the moneyed elite as well as some infrastructure 
money that usually benefits China in the long term.
    The U.S. model, I think, is superior insofar as we try to 
inspire positive visions of the United States by virtue of 
helping working women and men across the world and creating 
hope because, generally, where there is hope we find a lack of 
extremism.
    Having said that, I've articulated before that I believe 
the U.S. model fails when we send money to those women and men 
on the ground who are in autocratic and dictatorial regimes 
because what we do is, unintentionally, perpetuate the bad--
that is, that autocratic and dictatorial regime who is more 
inclined to align itself with China or Russia, by virtue of 
helping people on the ground, right?
    And so how can we focus on getting aid to the people in the 
most need and building good will toward the United States and 
our Western allies and creating and sustaining nations who wish 
to be reliable partners in the global community whilst facing a 
paradigm of Russian intermeddling to undermine the very 
confidence in the sorts of governments that we work best with 
and a Chinese model that essentially greases the palms of those 
who are in power?
    How do we do what we try to do and make sure that we are 
not essentially propping up these regimes by helping the most 
vulnerable and their populations, thus removing any potential 
pressure that might exist for change?
    Ambassador Green. More than I'll be able to answer in the 
brief time.
    Mr. Garrett. You've got 1 minute and 9 seconds. [Laughter.]
    Ambassador Green. So first off, we work through most every 
place through NGOs and civil society to make sure that the 
money doesn't simply go to governments and through agencies but 
instead goes--and that's a good way of helping the target.
    Secondly, I think part of our ability to counter the other 
models that are out there is better branding and describing of 
what we do do.
    And third, I think simply reaching out to the people, 
making clear that we want to help them help themselves. It's 
the old American ethic that we have to constantly reinforce 
that sometimes I think we take for granted and don't talk about 
nearly enough.
    Mr. Garrett. I am going to interrupt because we have 20 
seconds.
    So there is a marketing component in here, right?
    Ambassador Green. Absolutely.
    Mr. Garrett. And we will do a great job with putting USAID 
and product--or from the people of the United States on the 
food bags, et cetera.
    Are we working on sort of trying to expand that concept 
because it's really and truly--I hate this term because from 
whence it arises--hearts and minds game?
    Ambassador Green. Yes, absolutely. That is a big goal of 
ours.
    Mr. Garrett. Thank you so much. Thank you, Mr. Chairman.
    Chairman Royce. And that was a very effective way to 
communicate that concept in 5 minutes.
    We go to Brad Schneider of Illinois.
    Mr. Schneider. Thank you, and Mr. Green--Ambassador Green, 
thank you for being here and thank you for taking the 
leadership in the work you're doing.
    U.S. foreign assistance programs are critical to advancing 
stability and growing the economies of developing countries 
which are vital to U.S. national interests and can help avoid 
costlier conflicts.
    As former Defense Secretary Robert Gates noted, development 
contributes to stability. It contributes to better governance, 
and if you are able to do these things and you're able to do 
them in a focused and sustainable way then it may be 
unnecessary for us to send soldiers.
    One hundred and fifty one retired generals and admirals 
recently sent a letter to Congress reinforcing their strong 
conviction that elevating and strengthening diplomacy and 
development alongside defense is critical to keeping America 
safe.
    They were followed by over 1,200 veterans from all branches 
of the military in all 50 states who wrote to Congress calling 
for strong resources for diplomacy and development and to 
ensure that ``We only send our brothers and sisters in uniform 
into harm's way as a last resort.''
    I'd like to insert these two letters for the record.
    Thank you.
    I've always said that the national security of the United 
States relies on what I refer to as a three-legged stool--
diplomacy, development, and defense.
    If you take away one leg of the stool you destabilize the 
others and our national security.
    My first question for you is how do you view the roles of 
diplomacy and development in ensuring the national security of 
the United States?
    Ambassador Green. A number of ways.
    First off, we are a large part of the national security 
strategy that's been published. We help to take on the 
conditions that can easily be exploited by extremists--part of 
our work in preventing violent extremism.
    Secondly, we tackle conditions that could lead to global 
pandemics and then try to attack them at their source.
    Third, in places where we have seen success on the 
battlefield--places like northern Iraq and in Syria, we work 
very closely hand in glove with DOD to help stabilize those 
regions, restore essential services so that they can begin to 
do the hard work of repairing their communities and their 
leadership.
    We have 26 USAID staff who are at the Pentagon, the 
combatant commands, to make sure that we are all pulling 
closely, that we are each tapping each other's capacity.
    Mr. Schneider. And just because of time--so the next 
question is do you share Secretary Gates' view and other 
leaders that investing in diplomacy and development is critical 
and necessary to advance our security interests?
    Ambassador Green. I do, and it's part of the national 
security strategy.
    Mr. Schneider. Great. Thank you.
    Secretary Mattis recently said that America has two 
fundamental powers--the power of intimidation and the power of 
inspiration.
    Yet, the steep budget cuts proposed for USAID, which plays 
such a critical role in carrying out the power of inspiration, 
I believe failed to recognize this philosophy.
    Two thoughts here--do you agree that the best way to fight 
extremism and defend America's national security is through a 
combination of both hard and soft power?
    And does this administration's fiscal year 2019 budget 
request provide adequate funding to address the challenges we 
face around the globe?
    Ambassador Green. So the answer to the first part of that 
is yes, and to the second piece of it, it is as I've said. We 
will never have enough resources to take on every challenge. We 
will never have enough resources to exploit every opportunity.
    But we think that we can stretch these dollars as far as 
they can go and I do think that we can continue to pursue this 
mission that you've laid out through a combination of working 
with the security community, working with the private sector, 
making sure that we are prioritizing the right way.
    So those are the measures we are trying to take to make 
these dollars go as far as they can.
    Mr. Schneider. I hear what you're saying, but how do we 
turn to other countries and say, you need to do more while, by 
all appearances, we are sending the message that at the same 
time we are trying to do less?
    Ambassador Green. Well, I will say we are still by far the 
world's leader when it comes to humanitarian assistance and, 
secondly, the good news is, through, I think, our example and 
our diplomacy we are seeing other countries do more.
    Germany is doing more. Japan is doing more. South Korea has 
recently ramped up and said that it will double its ODA level--
I think they are currently 12th--by 2020. Again, I don't want 
to pretend as though this is going to take care of all the 
needs that are out there.
    But I think you are seeing more and more of our allies and 
friends contributing to the cause.
    Mr. Schneider. And I think that's important to continue to 
push them to do more. But I think at the same time we need to 
continue our leadership.
    And I have just a little time and I'll submit this last 
question for an answer in writing. But I do want to touch on 
our American aid workers serving our nation throughout the 
globe.
    They are at the front lines. I had the pleasure this year 
of having a USAID Foreign Service officer in my office as a 
fellow. It was extraordinary.
    They are putting themselves out on behalf of our nation, 
oftentimes in places far afield and close to harm, and we need 
to make sure we give them the support they need.
    And I'll submit a question for the record. Thank you.
    I yield back.
    Chairman Royce. And we go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Ambassador Green, thank you for being here and 
sitting here all this time. And I too want to commend you and 
ditto everything everybody else said and for taking Eddy under 
your tutelage, and don't let him corrupt you on these things 
called pokey sticks. [Laughter.]
    It's a private joke between he and I, but he'll get you on 
those.
    I want to talk to you about foreign aid. You know, we all 
look at it differently. It's in the eye of the beholder, and I 
came up here one of those ones wanting to get rid of it.
    But I was ignorant then. I've become more learned now and 
we look at it from a humanitarian, hunger, health care, human 
rights, educating people--we look at it differently and we 
realize that we may not like all of it but there are parts of 
it that are essential that we can't do without.
    It's kind of like the wildlife trafficking. You know, some 
people want to save the animals. Other people want to prevent 
the trafficking and using that money for ISIS and other bad 
things.
    And so with that, the President's budget calls for a 
creation of a new development finance institution that helps 
use more modern tools.
    How will the new development finance institution support 
the goal of transitioning donor countries off U.S. assistance, 
and our whole goal is to move from aid to trade is what we want 
to do and get countries on that.
    What's your thoughts on a new development finance 
institution?
    Ambassador Green. Great. Thank you, Congressman, and thanks 
for championing this cause.
    You know, I have called for a new DFI, whatever name we'd 
use, for about 10 years. I think it's an important tool in the 
toolbox and we have certainly seen it in other countries.
    I know the administration has not yet taken a formal 
position on the legislation. We are in the interagency process. 
But I certainly support the goals, the concept.
    We want to move toward private enterprise-driven 
development. We recognize that countries are in different 
places in their journey to self-reliance.
    There are some that are ready for a transition. They are 
ready for a conversation. They want to be self-reliant. We want 
them to be self-reliant.
    In most cases, what they are looking for is technical 
assistance to help them catalyze private investments. There are 
other countries that are a long way off and we recognize that 
it'll be a while before they get there.
    But helping each country on their journey, which means 
talking about steps that, in our experience, need to be taken 
and also helping them by looking at metrics to prioritize those 
capacities that we need to help them build is all part of it.
    But I think the tools of a DFI are important. I think it 
can help stimulate growth.
    Mr. Yoho. I do too, and I think that's something that's 
been lacking for that transition. And as you talked in your 
opening statement here, U.S. development finance institutions 
will only succeed through strong institutional linkages with 
USAID.
    What kind of linkages are you talking or referring to? Can 
you be more specific?
    Ambassador Green. Well, as I've looked at the models that 
are out there, most recently what China announced, they have 
different models for integrating development and pulling it 
together.
    To me, the important part of this is integration as close 
to the ground as you can get it because that's, obviously, 
where development work is done.
    So it's looking at conditions on the ground, opportunities 
on the ground, and making sure that's integrated into, again, 
the DFI process in crafting investable bankable deals and 
transactions.
    So that's where I think the linkages are probably best put. 
Again, there are different models to it. But as we have been I 
look forward to working with you on this.
    Mr. Yoho. I do too, and I look forward to working with you, 
and the name of the act is the BUILD Act, which is Better 
Utilization of Investments Leading to Development.
    Bipartisan legislation has been introduced which would make 
you in your current position--I don't want to put you on the 
spot--as the vice chairman of the board. Would this help ensure 
closer ties between DFI and USAID to accomplish our nation's 
goals?
    Ambassador Green. Again, the position--the administration 
has not yet taken a formal position. But as I've said, I 
believe in a DFI and I think integration is a good thing and 
will help us all be more effective.
    Mr. Yoho. Okay. And the last thing--and you brought this up 
and it's been talked about, the number of refugees in the world 
we have not seen I don't think ever.
    Seventy million refugees displaced--that's 1 percent of our 
world population of 7 billion, and we have got to be able to 
get in there and, like you said, most of these people want to 
go back to Raqqa--the ones you talked to.
    If we don't intervene in a positive way, they are a 
breeding ground for ISIS. It's like one cell of a tumor left 
can be detrimental.
    I yield back.
    Chairman Royce. Brad Sherman of California.
    Mr. Sherman. Administrator Green, you're engaged in what I 
think is the most important work our Government does. You help 
the poorest in the world.
    You create conditions that will hopefully lead to democracy 
for some of the most unfree in the world, and I think dollar 
for dollar you do more for American national security than any 
other element of our foreign policy.
    We spend, roughly, \1/5\ of 1 percent of our GDP on 
development aid. When you poll Americans, sometimes they think 
we spend 25, 50 percent of the Federal budget.
    I would propose that we go to the people and say, let's 
spend only \1/4\ of 1 percent of America's GDP and that, of 
course, would be viewed as a limitation by most and an increase 
by those of us in this room.
    Now, you're urging other countries to do more. You should 
urge America to do more and, of course, when the administration 
urges a one-third cut in our development budget that does not 
help us.
    But you should urge Americans to do more because we are 
doing far less than other developed democracies. Sweden does 
1.4 percent of their GDP, Norway 1 percent, Great Britain .7 
percent. We are doing .2 percent of our GDP.
    But then you should also urge those other countries to do 
more because they are not burdened by the national security and 
defense expenditures. So they can spend another 4 percent of 
their GDP on foreign aid. Or push it both ways.
    And looking at our national security budget, we spend, 
roughly, 5 percent, if you factor in the cost of pensions, 
veterans assistance, the other things we do to reward those who 
put their lives on the line.
    Compare that to our aid budget and, of course, as others 
have mentioned, you have the letter from 120 flag officers 
urging a robust expenditure on foreign aid.
    That's just three- and four-star flag officers. If they had 
included two-star and one-star, it would have been a much 
longer signature page.
    And of course, we are all familiar with what the Secretary 
of Defense said about the importance of spending money on your 
work so that we don't have to buy him more bullets.
    As to particular expenditures, I think you might have been 
in this room up here when I've urged your predecessors to buy 
textbooks for elementary school, first, because where parents 
have to pay for those textbooks either the kids may not go to 
school, they may not have textbooks, or they may be sent to 
madrassas where the books are free.
    Second, because that gives us some control over content--I 
am not saying that's to meet the San Francisco politically 
correct standards for us to print the textbook.
    And finally, because in a society where we are providing 
free textbooks, who's going to steal the textbooks? It's a lot 
easier to steal other things.
    As to particular regions I know you're aware that Armenia 
is blockaded by Turkey and Azerbaijan and deserves our aid. 
That Nagorno-Karabakh, now the Republic of Artsakh is 
beleaguered and surrounded. And that the southern part of the 
Republic of Georgia, the region of--and I am going to 
mispronounce this--Samtskhe-Javakheti, and I believe you've 
visited Georgia so you probably pronounce it better than I 
can--is an area that deserves a substantial portion of our 
assistance and I believe many of our colleagues have signed a 
letter to that effect.
    I hope you would focus on Sindh in Pakistan, and the 
Rohingya in Burma and Bangladesh. And I do have one question, 
believe it or not, and that is your budget provides for a 50 
percent cut in international family planning.
    That's expected to lead to 3.7 million unintended 
pregnancies, 1.6 million additional abortions, and over 7,000 
additional maternal deaths.
    The budget mentions only one kind of family planning, which 
is fertility awareness, which the CDC has identified as the 
least effective method.
    Can you assure us that USAID will support a robust family 
planning effort, which will make available to women the modern 
contraceptive methods that they rely on?
    Ambassador Green. Thank you for the question. I'll respond 
to you in writing because I want to make sure that I am precise 
in what we are currently doing and what we are able to do.
    Chairman Royce. And the time has expired.
    Mr. Sherman. I look forward to your answer in writing and 
hopefully you'll also address some of the other elements that I 
mentioned as well.
    Ambassador Green. Thank you.
    Chairman Royce. We go to Adriano Espaillat from New York.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Thank you, Administrator Green, for being here. Much has 
been said about the international affairs budget and that is 
just 1 percent of the total budget and for the USAID it's \1/2\ 
of 1 percent of the Federal budget.
    I would like to enter, Mr. Chairman, into the record the 
comments made by retired Army Chief of Staff General George W. 
Casey, Jr. He commented that the 30 percent proposed cut to the 
State Department and the USAID budget reflects a strategic and 
budget mismatch.
    If we take our eye off the ball, China and Russia will fill 
that void. In fact, China is already investing, building 
bridges and tunnels and dams and they have a very vigorous 
presence in Central and South America, outflanking Taiwan and, 
of course, making their presence there really strong.
    We have already seen them expand both their humanitarian 
aid and financial investment in the region, further 
strengthening economic relationships including with Caribbean 
governments.
    Now, in fact, I'd like to submit to the belief that it has 
been our negligence in Central, South America, and the 
Caribbean that has created the leadership vacuum allowing 
governments like the Maduro regime to emerge and trample over 
democracy and human rights.
    We, frankly, have turned our face and that has festered and 
it has dramatically impacted the region. The Caribbean is one 
of our closest allies in terms of trade and proximity. We call 
it a third border.
    Now, while currently immigrants send back to their 
countries of origin over 700--I am sorry, $574 billion in 
remittances.
    I propose that perhaps we can take a portion of the fees 
and taxes that they pay on those remittances to dramatically 
help increase your budget at USAID because we just won't be 
able to compete with China and Russian, and that is, 
unfortunately, while addressing Caribbean diplomats in early 
March 2018, the director of the Pan-American Health 
Organization, Dr. Carissa Etienne, identified key health 
priorities for the Caribbean nations with respect to 
communicable diseases.
    She stated that malaria--and you have identified--you have 
testified personal experience with that--tuberculosis and HIV 
present a significant threat to citizens in Caribbean nations.
    Yet, you tell us that you don't have the tools--you don't 
have the moneys to really invest in Central America, South 
America, and the Caribbean--our neighbors, the third border--
while other countries like China and Russia are making a full 
court press to fill that leadership vacuum.
    Health experts in the region contend that Caribbean nations 
are ill equipped to treat public health crises that have been 
compounded by a historically devastating hurricane season.
    We have seen how that impacted the Caribbean recently, and 
today--today, as we sit here, Vice President Pence will be 
testifying before the OAS, basically pointing his finger at 
Venezuela for their lack of democracy--their rogue government, 
while yesterday the President commended Putin in his so-called 
reelection.
    In addition to not having moneys to help out this region, 
we are sending mixed messages to the region, and I think that 
is unfortunate.
    Lasting damage to both local and regional medical 
infrastructure has debilitated medical professionals as they 
attempt to resolve health concerns.
    Let me ask one question because I know my time is running 
out. You mentioned yesterday that you wanted to help rebuild 
the Caribbean countries in a more resilient way.
    Can you elaborate what you meant with this and how do you 
propose--were you going to increase substantially USAID's 
budget? If you don't have--we don't have a penny to go on and 
we want to be the leaders of this hemisphere and we are just 
getting our candy eaten by other countries. It's really sad 
that it has come to this state of affairs.
    Ambassador Green. Congressman, thank you, and quite 
frankly, thanks for your passion, and the fact that you are, I 
think, raising the profile of the challenge and the opportunity 
that is there in the Caribbean.
    In the devastation, the wake of the terrible hurricanes, we 
did respond immediately. We mobilized immediately a disaster 
assistance response team, provided 185 metric tons of relief 
supplies, $22 million in humanitarian assistance together with 
DOD.
    And in fact, right now in Dominica we have a USAID-based 
disaster expert who is working to help enhance the capacity of 
the emergency operations center.
    We are also working with other donors, the private sector, 
and the World Bank to assess the long-term reconstruction 
needs.
    But beyond that, PAHO is a good partner of ours and we 
partner with them in a number of places, a number of ways. But 
you're exactly right. I think it's an area that I don't think 
receives enough attention and I would love to sit down with 
you, get some of your ideas----
    Mr. Espaillat. Thank you.
    Ambassador Green [continuing]. See what we can do. It's an 
important area.
    [Crosstalk.]
    Chairman Royce. Mr. David Cicilline from Rhode Island----
    Mr. Espaillat. Thank you.
    Chairman Royce [continuing]. Is next in the queue.
    Mr. Espaillat. Thank you.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, 
Administrator. I want to associate myself with all of the 
remarks made by my colleagues about the importance of a robust 
development and assistance budget.
    And I'll just say to you very directly that I see your role 
as not only executing a budget but being a forceful and 
passionate and effective voice for development and humanitarian 
assistance.
    You are appointed by the President but you serve the 
American people and I hope, although I've been a little 
disappointed you haven't been public in your criticism of these 
proposed cuts.
    I am hoping that within the administration you are 
screaming loudly about the impact that these kinds of cuts 
would have on our national security and our leadership in the 
world, and I hope if you're not you will continue to scream 
loudly.
    You mentioned, in response to Mr. Schneider's question, 
that there were commitments being made to fill in some of the 
gaps in funding that the administration is proposing to cut. 
Can you tell me what commitments you received to date from 
other governments to fill in funding gaps?
    Ambassador Green. We receive, the world receives 
commitments at the pledging conferences around humanitarian 
challenges. There is one coming up. A $1.7 billion plan has 
been put forward.
    Mr. Cicilline. No, I am talking about--I think you were 
suggesting that some of the cuts that are being proposed that 
somehow those programs were going to be replaced by funding 
from other governments.
    Ambassador Green. Oh, if I did I am--I didn't mean to 
create that impression.
    Mr. Cicilline. Okay. Thank you. I----
    Ambassador Green. We work closely with them but not quite 
that close.
    Mr. Cicilline. It has been reported this week that Turkey 
has captured the city of Afrin in northern Syria after carrying 
out a 2-month attack against Kurdish forces and civilians.
    I am really concerned about the situation. I am attempting 
to get a briefing by the State Department but they apparently 
have other priorities and have not been able to do that or been 
willing to do it.
    So I'd be interested from the USAID perspective, can you 
tell us what's happening on the ground there? Is USAID or any 
of our partners providing assistance? Do civilians have access 
to shelter and basic necessities?
    This is a very, very disturbing set of events.
    Ambassador Green. Thank you for the question.
    Obviously, I share your concern. With respect to what's 
happening in Syria, we are limited in where we were able to 
work. We do not work--except for humanitarian assistance, 
which, as you know, we provide without reference to--solely 
based on need.
    In terms of our development assistance and stabilization 
work, we are not working in Assad-held areas.
    Mr. Cicilline. So is there any humanitarian assistance 
going into Afrin at all or our allies or partners being allowed 
access into that area?
    Ambassador Green. I'll have to get back to you on that 
because I am not quite sure about the security situation and 
our ability to be in these----
    Mr. Cicilline. I would very much appreciate that detailed 
briefing on this. I am attempting to raise this in every venue 
that I can.
    Ambassador Green. Raqqa is where we are working currently.
    Mr. Cicilline. Next, Mr. Administrator, you spoke during 
your confirmation hearing last year that you renewed your 
commitment to LGBTI human rights work of USAID.
    And given the very high levels of discrimination and 
violence and continued criminalization that LGBTI people face 
in many parts of the world, could you tell us a little bit 
about what--how USAID is implementing these commitments on the 
ground day to day?
    Ambassador Green. Sure. I'll give you two levels of it.
    First off, internally, obviously, our own workforce--
inclusion and respect are core values of USAID. Made it clear 
the first week I was on the job and we continue to.
    Secondly, marginalized communities work including, 
obviously, marginalized LGBTI is part of our programming, 
ensuring that we are inclusive in all the programming that we 
do.
    Particularly on the democratic governance side, as I have 
said on many occasions, no country is a representative 
democracy if it isn't listening to all of its people or tapping 
into all of its people for the answers and solutions that it 
needs.
    So it's a core part of our work and will continue to be.
    Mr. Cicilline. And finally, I was in Myanmar in November 
visiting the Rohingya population in the refugee camps in 
Bangladesh and then in Myanmar, and this is, as some of my 
colleagues have already referenced, a huge crisis.
    It's a genocide. It's been described as an ethnic 
cleansing. This is unspeakable violence. What are we doing to 
help the Bangladeshis with the refugee community that has--is 
in their country and assist in a safe dignified return, when 
appropriate, back to Myanmar?
    Ambassador Green. Sure. So first off, we have issued calls 
for immediate and unconditional access--humanitarian access to 
areas where the Rohingya currently are, whether it be on the 
Bangladeshi side of the border or in Burma, and that access has 
not been unconditional or open.
    So that's the first and most important thing. We are 
providing humanitarian assistance. But, quite frankly, we need 
more information. We need to be able to get to these areas.
    I'll be traveling there myself. I was supposed to go a 
couple of weeks ago but it was unclear because of conditions on 
the ground that I'd be able to and if you can't it really isn't 
of much good and much value.
    So it's something that we are talking about every day. We 
are providing humanitarian assistance but we need to do much, 
much more than that and I share your deep, deep concerns about 
what is, obviously, happening--that which we can see and that 
which we cannot see.
    Mr. Cicilline. Thank you. I yield back.
    Chairman Royce. Okay. We go to Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman. Thank you, 
Administrator for you and your team's great work. You have such 
an incredible portfolio that you're responsible for and it's 
really remarkable the work that you do. I am excited about much 
of your testimony here today.
    I was especially excited about your efforts to go after the 
hybrid warfare of the Russians by building up energy companies 
in the Ukraine. I mean, it's just such an important thing that 
we need to be doing.
    My question is specific to Afghanistan and Pakistan. But it 
really points to a general problem that we face throughout the 
whole of government and dealing with the rest of the world as 
we try and address these different problems.
    The Special Inspector General for Afghanistan 
Reconstruction has pointed out that we are still continuing to 
lose ground as far as the number of districts and as far as the 
population in Afghanistan and there is a clear military plan. 
There is a five-point plan the military has as far as clearing 
and holding different ground and they are succeeding in 
clearing and holding ground.
    But then comes the job of reconstruction and transition and 
it's difficult to do in these environments because of the 
danger, obviously, and the terms of service and the money and 
the corruption and everything else that you have to deal with.
    I met recently with your assistant administrator for 
Pakistan and Afghanistan, Mr. Huger. Is it Huger or--Huger, and 
it really was a fantastic meeting and I am so impressed by him 
and he's a very talented person--a great person to have on your 
team--and talked about the need to develop a comprehensive plan 
that is clear as to these are the limited goals that we have as 
far as the civilian side.
    Not only for USAID, because I see that you're doing that in 
USAID and Mr. Huger started to talk about that plan that'll be 
forthcoming for us to all hear about, but also coordinating 
with the many other government agencies in the United States 
Government as well as the U.N. or our other government 
partners--India, for example.
    I saw in your testimony that India was $3 billion and they 
are only the fifth largest contributor to Afghanistan and 
Pakistan. I'd like you to--in your answer to my question tell 
me who those other partners are that are above India and 
contributing to Afghanistan and Pakistan, if you know.
    But what are we doing--what can we do and how can we help 
you in helping to develop a comprehensive plan so that when 
India's putting in money, when the U.N. is putting in money, 
when our other government partners are putting in money, when 
the DOJ is putting in money, the DEA is putting in money, the 
Pentagon's putting in money, that we are all on the same page 
on the civilian side.
    I feel that we have a very clear game plan on the military 
side but the civilian side is more like a list instead of a 
plan because we are doing all these many wonderful things but 
they are not in a comprehensive plan.
    What can we do to encourage that comprehensive planning, 
certainly, for Afghanistan and Pakistan but for the rest of 
your agencies as well?
    Ambassador Green. Great question.
    So I could tell you first that John Huger is involved in 
the interagency with all of the other agencies as the South 
Asia strategy is fully developed and implemented so we are 
working very closely together, because you're right, you can't 
simply touch one piece of it. You'll never get the results that 
you need to see--and working with numerous partners.
    I will get you a precise list. I want to make sure I get it 
right in terms of who those top contributors are. What I----
    Mr. Suozzi. You know, what I'd really love to see is a 
complete list of everybody who's putting in money outside of 
Afghanistan into Afghanistan.
    That would be very--you know, our Government agencies as 
well as the other governments that are doing it--a 
comprehensive list. It must be hundreds of groups that are 
putting in money into Afghanistan.
    But they are all being put in little pieces instead of into 
one comprehensive plan. This is our five-point plan of the 
things we need to encourage and this one fits into that one and 
this one fits into that one.
    So a list of all the government agencies that are--if you 
can do that kind of thing. Does that list, do you think, exist?
    Ambassador Green. We will--we will perhaps create it. We 
will endeavor to provide that list for you.
    The work of the Indian Government in NGOs is also quite 
inspiring and I've seen some of it--the work that Indian 
cooperatives are doing to foster women's entrepreneurship in 
Afghanistan where they actually bring Afghan business women 
out, do training, experience, teach them business planning, and 
then bring them back in. So there are a lot of--we will pull 
them together----
    Mr. Suozzi. I just want to say, I know there is so many 
great things that USAID is doing and so many great things even 
the Pentagon's doing and DOJ and DEA and everybody's doing all 
these little things that are great or big things that are 
great.
    It's the idea of putting them all into a comprehensive plan 
so that we say okay, our 5-year goal is we want to have this 
many power plants up and running--we are going to have this 
many teachers--we are going to have this many judges trained, 
this many prosecutors, this many poppy seeds--poppy plants 
eradicated, this many--so we need to have a comprehensive plan. 
This is from my experience as a mayor and a county executive. I 
just want to see it in more of a plan overall.
    You're doing great work and I want to encourage you in the 
great work that you and your team do. Thank you.
    Chairman Royce. We go now to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman, and thank you, 
Administrator, for giving us a few more minutes.
    I have great respect for USAID. I think the work you do is 
amazing. I've seen some of it as a member of the House 
Democracy Partnership, working with our--the Democratic 
equivalent of that.
    And that's why it distresses me so much to see these cuts. 
I mean, you mentioned that this year's request is $1.3 billion 
more but that's really disingenuous because it still represents 
a drastic 33 percent cut.
    In addition to some of the cuts that have been mentioned, 
I'd also like to point out 11 percent cut to the HIV program, 
31 percent cut to the Global Fund contribution, 50 percent cut 
to international family planning, 51 percent cut to basic 
education, 72 percent cut to biodiversity programs. I think 
it's a travesty.
    I agree with a lot of the comments that have been made 
about individual places but I'd like to talk about groups that 
could be found in all of these places that are especially 
vulnerable.
    Mr. Cicilline mentioned the LGBT community. I'd like to 
follow up on that. Your answer was kind of a general some of my 
best friends are gay kind of answer. I'd like if you could give 
us some more specifics about just what you're doing, especially 
in light of the fact that the State Department is now going to 
scale back its reporting, according to some things that we have 
heard on the--about the abuse of rights of LGBT individuals so 
in that human rights report how does that inform your 
policymaking and what specifically are you doing. You can send 
me that in writing.
    But the other group I want to ask about are the disabled. 
The United States does an amazing job for the disabled. I think 
our Disability Act is just the best in the world.
    But you have even recognized yourself and USAID's 
disability policy says that we are more effective when over 1 
billion--that's about 15 percent of the world's population--who 
are living with some form of disability are included in our 
programming.
    Unfortunately, this budget eliminates all the funding once 
again for the special protection and assistance needs of 
survivors program--the SPANS program.
    That's the wheelchair program that we have tried to 
encourage the use of wheelchairs and access for wheelchairs. 
It's the Leahy War Victims Fund which helps with survivors of 
land mines and other war tragedies. It's the vaccination 
program that comes in the wake of war that's been eliminated 
because of upheaval.
    Tell me what you're going to do to help the disabled and 
how you deal with just eliminating that program.
    Ambassador Green. We will get you a complete list, 
Congresswoman. We have programs all around the world that work 
in this area and will continue to.
    We will be happy to bring you the results in some of the 
programs we are doing and the places where we are doing it. 
It's a big part of our work.
    Ms. Titus. Well, I hope so. But I don't know how it can 
continue if you're going to just eliminate that program. I'll 
look forward to getting that list and I'll be back in touch 
with you because I think eliminating programs in both of these 
two areas for both of these population groups is a mistake.
    Ambassador Green. I don't believe that's what we are doing.
    Ms. Titus. Okay.
    Ambassador Green. Again, these continue to be vitally 
important programs to us and we have been working for years in 
these programs and will continue to.
    Ms. Titus. And you can do that with this kind of drastic 
cut in the funding?
    Ambassador Green. My job is to make this money go as far as 
it possibly can. My job is to make sure that our investments 
are effective, looking at the metrics that we have to help 
countries build their capacity, take on these challenges as 
well, which is what they want, obviously, what we want.
    Yes, these are important programs to us--important areas.
    Ms. Titus. Well, thank you, and I look forward to getting 
that information.
    I yield back.
    Chairman Royce. Thank you, Congresswoman Titus.
    Well, I wanted to just say the Office of Personnel 
Management had announced today that most government buildings 
were closed.
    So I especially wanted and--because of the snowstorm that 
started this morning--I just wanted to thank Administrator 
Green for braving that snowstorm and coming here to be with us 
today.
    This committee takes very seriously its responsibility of 
oversight. And so Ambassador, your commitment to transparency 
and accountability is especially appreciated by us.
    And let me also say that from your early work spearheading 
PEPFAR while you were in Congress to championing democracy 
while you were with IRI to your efforts serving as Ambassador 
in Tanzania as well as your work on the Millennium Challenge, 
there is no question that you are the right person to lead 
USAID and assure that our assistance advances our values and 
our interests, a point that my colleague across the aisle made 
as well.
    And so I thank you again, and this meeting stands 
adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

                          A P P E N D I X

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
